No. 20-828
IN THE

Supreme Court of the United States

d

FEDERAL BUREAU

OF INVESTIGATION , ET AL .,

—v.—

YASSIR FAZAGA ,

Petitioners,

ET AL .,

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF IN OPPOSITION

Dan Stormer
Shaleen Shanbhag
HADSELL STORMER RENICK
& DAI LLP
128 North Fair Oaks Avenue
Pasadena, CA 91103
Amr Shabaik
Dina Chehata
CAIR-LOS ANGELES
2180 W. Crescent Avenue,
Suite F
Anaheim, CA 92801

Ahilan Arulanantham
Counsel of Record
UCLA SCHOOL OF LAW
385 Charles Young Drive East
Los Angeles, CA 90095
(310) 825-1029
arulanantham@law.ucla.edu
Peter Bibring
Mohammad Tajsar
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West Eighth Street
Los Angeles, CA 90017

QUESTION PRESENTED
This case challenges a domestic FBI
surveillance program that, according to the FBI’s own
informant, targeted individuals for electronic
surveillance because of their religion. The
Government asserted the state secrets privilege and
sought dismissal of Respondents’ free exercise and
religious discrimination claims on that basis. The
court of appeals held that, with respect to electronic
surveillance collected as part of the investigation, the
Foreign Intelligence Surveillance Act provides for ex
parte and in camera review of the lawfulness of the
surveillance, and that procedure displaces, at least at
the threshold, the rule permitting dismissal of a claim
based on state secrets. The question presented is:
Whether the state secrets evidentiary privilege
recognized in Reynolds v. United States authorizes
the dismissal of claims challenging the lawfulness of
electronic surveillance, particularly where Section
1806(f) of the Foreign Intelligence Surveillance Act
(FISA), 50 U.S.C. 1801 et seq., requires a district court
to assess the lawfulness of electronic surveillance by
considering sensitive evidence in camera and ex parte.

i

TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
TABLE OF AUTHORITIES ...................................... iv
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE .................................... 3
A.

Factual Background .......................................... 3

B.

Statutory Framework ....................................... 6

C.

Procedural History ............................................ 9

REASONS FOR DENYING THE PETITION ......... 16
I.

CERTIORARI IS PREMATURE ...................... 16

II.

THERE IS NO CONFLICT WITH THIS
COURT’S PRECEDENT OR ANY OTHER
DECISION ........................................................ 19

III. THE DECISION BELOW WILL NOT LEAD
TO PUBLIC DISCLOSURE OF SECRET
INFORMATION ............................................... 21
IV. THE DECISION BELOW IS CORRECT ......... 25
A.

FISA Establishes Mandatory Procedures
for Courts to Utilize When Litigation
Involves Secret Information Relating to
Electronic Surveillance ............................. 25

B.

Section 1806(f) Displaces the Dismissal
Remedy of the State Secrets Privilege. .... 30

C.

The Individual Capacity Respondents’
Seventh Amendment and Due Process
Concerns are Premature and Lack
Merit. ......................................................... 32

CONCLUSION.......................................................... 34
ii

APPENDIX................................................................ 1a
Joint Status Report (Aug. 31, 2020) ................... 1a

iii

TABLE OF AUTHORITIES
CASES
Al-Haramain Islamic Found., Inc. v. Bush,
507 F.3d 1190 (9th Cir. 2007) ............................... 23
Ellsberg v. Mitchell,
709 F.2d 51 (D.C. Cir. 1983) ................................. 24
Emp’t Div. v. Smith,
494 U.S. 872 (1990) ............................................... 18
Fidelity & Deposit Co. of Maryland v. United States,
187 U.S. 315 (1902) ............................................... 33
Galloway v. United States,
319 U.S. 372 (1943) ............................................... 33
General Dynamics Corp. v. United States,
563 U.S. 478 (2011) ............................. 19, 20, 31, 32
Halpern v. United States,
258 F.2d 36 (2d Cir. 1958)..................................... 23
In re NSA Telecomms. Records Litig.,
564 F. Supp. 2d 1109 (N.D. Cal. 2008) ................. 20
In re Terrorist Bombings of U.S. Embassies in E.
Africa, 552 F.3d 93 (2d Cir. 2008) ........................ 23
Jabara v. Webster,
691 F.2d 272 (6th Cir. 1982) ................................. 23
Jewel v. Nat'l Sec. Agency, No. 19-16066
(9th Cir.) (filed Oct. 7, 2019) ................................. 21
Jewel v. Nat'l Sec. Agency,
No. C 08–04373 (N.D. Cal. April 25, 2019) .......... 17
Jewel v. Nat'l Sec. Agency,
965 F. Supp. 2d 1090 (N.D. Cal. 2013) ................. 20

iv

Mohamed v. Jeppesen,
614 F.3d 1070 (9th Cir. 2010 .......................... 10, 33
Parhat v. Gates,
532 F.3d 834 (D.C. Cir. 2008) ............................... 23
Tenet v. Doe,
544 U.S. 1 (2005) ................................................... 20
Totten v. United States,
92 U.S. 105 (1875) ..................................... 11, 20, 31
U.S. v. Daoud,
755 F.3d 479 (7th Cir. 2014) ................................. 19
United States v. Abu-Jihaad,
630 F.3d 102 (2d Cir. 2010)............................. 22, 33
United States v. Amawi,
531 F. Supp. 2d 832 (N.D. Ohio 2008) .................. 22
United States v. Aziz,
228 F. Supp. 3d 363 (M.D. Pa. 2017 ..................... 22
United States v. Damrah,
412 F.3d 618 (6th Cir. 2005) ................................. 33
United States v. Lee,
2000 U.S. App. LEXIS 3082 (10th Cir. Feb. 29,
2000) ...................................................................... 23
United States v. Reynolds,
345 U.S. 1 (1953) ............................................ passim
United States v. Squillacote,
221 F.3d 542 (4th Cir. 2000) ................................. 22
United States v. Texas,
507 U.S. 529 (1993) ............................................... 30
Usery v. Turner Elkhorn Mining Co.,
428 U.S. 1 (1976) ................................................... 19

v

Wikimedia Found. v. Nat’l Sec. Agency/Cent. Sec.
Serv., 427 F. Supp. 3d 582 (D. Md. 2019) ............. 17
Wikimedia Foundation v. Nat'l Sec. Agency,
No. 20-1191 (4th Cir. Feb. 21, 2020)..................... 21
STATUTES
18 U.S.C. App. 3 § 1 et seq. ....................................... 22
50 U.S.C. 1801 et seq. ........................................ passim
50 U.S.C. 1804 .......................................................... 30
50 U.S.C. 1806 ............................................................ 8
50 U.S.C. 1806(c)................................................ passim
50 U.S.C. 1806(d) ...................................................... 25
50 U.S.C. 1806(e) ...................................................... 25
50 U.S.C. 1806(f) ................................................ passim
50 U.S.C. 1806(g) ............................................ 8, 22, 28
50 U.S.C. 1806(h) ...................................................... 19
50 U.S.C. 1809(a) ........................................................ 9
50 U.S.C. 1810 ...................................................... 9, 29
50 U.S.C. 1810(a)–(c) .................................................. 9
50 U.S.C. 1825(h) ...................................................... 22
50 U.S.C. 1881(a)–(c) ................................................ 30
RULES
Fed. R. Evid. 501 ....................................................... 20

vi

OTHER AUTHORITIES
Fed. Bureau of Investigation, Domestic Investigations
and Operations Guide (2008) .................................. 6
H.R. Rep. No. 95-1720 (1978) ................................... 28
Merriam-Webster.com (2021), https://www.merriamwebster.com/dictionary/ ........................................ 27
S. SELECT COMMITTEE TO STUDY GOVERNMENTAL
OPERATIONS WITH RESPECT TO INTELLIGENCE
ACTIVITIES, BOOK II: INTELLIGENCE ACTIVITIES AND
THE RIGHTS OF AMERICANS, S. REP. NO. 94-755
(1976) ....................................................................... 7
The Convert, THIS AMERICAN LIFE (Aug. 10, 2012),
available at https://www.thisamericanlife.org/471/
the-convert ............................................................... 4

vii

INTRODUCTION
The Government’s petition is premature. It
asks this Court to decide whether Congress displaced
the state secrets privilege by authorizing in camera ex
parte review of sensitive evidence when it enacted
FISA. But this case is still at the motion to dismiss
stage. The district court may never have to apply
FISA’s ex parte in camera review procedures because,
in the district court, the Government has now
advanced a threshold objection: that Respondents
have not shown they are “aggrieved parties,” and
therefore cannot invoke these procedures. The
Government has won that argument in similar
litigation, and if it prevails on it here, there will be no
occasion to apply the ex parte in camera procedures
Congress established in this case.
Furthermore, the court of appeals held only
that, as a threshold matter, FISA’s ex parte in camera
judicial review procedures displace the dismissal
remedy that sometimes accompanies the state secrets
evidentiary privilege. It made clear that its holding
did not authorize disclosure to Respondents or the
public, but instead only ex parte in camera review by
the trial court. If the district court were to order any
disclosure of the assertedly secret information, the
decision below permits the Government to invoke the
state secrets privilege anew.
The state secrets issue may also disappear
should the Government find that its secret evidence is
unnecessary to answer Respondents’ religious
discrimination claims. Neither the courts below nor
the Government have had the opportunity to assess
whether the secret information is germane to those

1

claims because Respondents have not yet been
permitted to move for summary judgment.
Even if the state secrets issue does not
disappear, there is still no risk that the Government
will be forced to turn over information it wishes to
keep secret from the court, let alone Respondents.
Respondents have repeatedly stated they will not seek
discovery or even ex parte in camera review of secret
evidence to prove their case, unless the Government
relies on that evidence to defend itself. Thus, even if
secret information might arguably be relevant, the
Government will always have the option not to rely on
it and therefore to withhold it entirely—even from the
court, should it prefer to do so.
Thus, there is a substantial possibility this case
will be resolved without use of FISA’s procedures at
all, and no risk that any secret information will be
disclosed to Respondents without affording the
Government an opportunity to assert the privilege
again, with full opportunity for this Court’s review.
There is also no circuit split. Every court to
address the question has held that, in Section 1806(f),
Congress displaced the state secrets privilege with
respect to materials relating to electronic surveillance
that, according to the Government, cannot be
disclosed without harming national security.
As those cases confirm, the decision below is
correct. Congress expressly provided for ex parte in
camera review where the Government seeks to “use”
secret information regarding electronic surveillance,
or where any party seeks to obtain such information.
Here, the Government wishes to “use” its secret
evidence to dismiss Respondents’ religion claims. And
in their prayer for relief Respondents have sought, as
2

an alternative remedy, to obtain information derived
from the illegal surveillance if they cannot have it
expunged. On both these grounds, FISA requires ex
parte in camera review to determine whether the
surveillance was lawfully authorized and conducted.
That procedure displaces, at least at the threshold, the
dismissal remedy the Government sought by invoking
state secrets.
Even if Congress did not displace the state
secrets privilege by enacting FISA, the Government
errs in asserting that it can obtain dismissal, rather
than merely the exclusion of evidence, under United
States v. Reynolds, 345 U.S. 1, 6–7 (1953). Should this
Court grant review, Respondents will argue that
Reynolds does not authorize dismissal as a remedy.
Where the Reynolds privilege applies, it requires that
“[t]he privileged information is excluded and the trial
goes on without it.” General Dynamics Corp. v. United
States, 563 U.S. 478, 485 (2011).
STATEMENT OF THE CASE
A.

Factual Background

This case arises from a highly publicized set of
incidents in 2006 and 2007, when the FBI enlisted a
paid informant, Craig Monteilh, to pose as a convert
to Islam. The FBI directed Monteilh to infiltrate the
Muslim community in Orange County, California, to
gather information about Muslims. He did so for over
a year, until his attempts to incite violence caused
members of the Islamic community to report him to
the FBI. They eventually won a restraining order
against him. In separate federal court proceedings,
the FBI revealed it had employed Monteilh as a
confidential informant. Monteilh himself confirmed
3

this fact in court and to the press, which covered the
issue extensively in national news, including on the
national radio show This American Life.1
Respondents are Sheikh Yassir Fazaga, an
imam at the Orange County Islamic Foundation, and
Ali Uddin Malik and Yasser AbdelRahim, practicing
Muslims who regularly attended services at the
Islamic Center of Irvine, California. Fazaga and Malik
are U.S. citizens; AbdelRahim is a lawful permanent
resident. Monteilh met with and surveilled each of
them. They filed a complaint in the Central District of
California challenging the surveillance to which they
were subjected.
Drawing
from
Monteilh’s
four
sworn
declarations in this case, Fazaga v. FBI, 884 F. Supp.
2d 1022 (C.D. Cal. 2012) (No. 8:11-cv-0031-CJC), ECF
No. 66, and Respondents’ direct interactions with him,
the complaint paints a detailed picture of a 14-monthlong FBI investigation that explicitly targeted
Muslims because of their religion. The explicit purpose
of this operation was to gather information on
Muslims in Orange County—not terrorists, spies, or
even ordinary criminals, but Muslims. See, e.g., First
Amended Complaint (“FAC”) at ¶¶ 88, 89, Fazaga, No.
8:11-cv-0031-CJC, ECF No. 49. The FBI did not
identify specific targets for Monteilh, but “repeatedly
made clear that they were interested simply in
Muslims” and “told him to gather as much information
on as many people in the Muslim community as
possible.” Id. at ¶¶ 89, 90.

1See

The Convert, THIS AMERICAN LIFE (Aug. 10, 2012), available
at https://www.thisamericanlife.org/471/the-convert.

4

To the extent they told him to focus, he was to
target Muslims who appeared more devout because
they were “more suspicious.” Id. at ¶ 110; see also id.
at ¶¶ 89, 96, 104. They told him that “Islam is a threat
to our national security.” Id. at ¶¶ 121, 162.
The FBI agents overseeing Monteilh:
•

gave him daily quotas for the number of
Muslims he should get contact information
from, id. at ¶ 131;

•

told him to go to the gym with Muslims to get
close to them and obtain information, id. at ¶
114; and

•

gave him a standing order to report on Muslims’
charitable giving, travel plans, and fundraising
activities, id. at ¶¶ 105–07, as well as any
lectures, classes or any other events held at
mosques, id. at ¶¶ 108–09, 133.

The complaint alleges that, through Monteilh,
the Government gathered information on Muslims
and their associates consisting of “hundreds of phone
numbers and thousands of email addresses”;
“background information on hundreds of individuals”;
“hundreds of hours of video recordings that captured
the interiors of mosques, homes, businesses, and the
associations of hundreds of Muslims”; and “thousands
of hours of audio recordings of conversations . . . as
well as recordings of public discussion groups, classes,
and lectures occurring in mosques and at other
Muslim religious and cultural events.” Id. at ¶ 137.
The
FBI
discarded
information
Monteilh
inadvertently gathered on non-Muslims. Id. at ¶ 120.

5

The complaint also alleges that Monteilh
repeatedly recorded religious conversations to which
he was not a party inside mosques by leaving behind
a secret recording device hidden in his car keys. Id. at
¶ 124–126. He also planted audio-listening devices in
Mr. Fazaga’s office and Mr. AbdelRahim’s house. Id.
at ¶¶ 125, 129, 135, 201, 209. And he video-recorded
sensitive locations, including mosques, homes, and
businesses. Id. at ¶¶ 127–129, 202, 209.
The FBI’s targeting of Muslims was consistent
with the operative FBI practice at the time. Its
investigative guidelines explicitly stated that religion
could be a factor in determining whether to conduct
surveillance. 2 And contemporaneous FBI training
given by the agency treated Islam as inherently
suspicious due to its alleged ties to terrorism. Id. at ¶¶
38–39.
B.

Statutory Framework

Congress enacted FISA in 1978 to establish
comprehensive control over electronic surveillance
conducted for national security purposes. A Senate
Committee that investigated the Government’s
domestic surveillance activities uncovered massive,
dragnet surveillance operations that, for decades, had
surveilled innocent U.S. citizens “on the basis of their
political beliefs, even when those beliefs posed no
The 2008 FBI Domestic Investigations and Operations Guide
stated that the FBI can consider “the role that religion may play
in the membership or motivation of criminal or terrorist
enterprise,” and that religious behavior is relevant if practiced by
a target group. See Fed. Bureau of Investigation, Domestic
Investigations and Operations Guide Section 4.2(B) at 27–28
(2008), at https://tinyurl.com/rjknhcuc); see also FAC at ¶¶ 36–
37, Fazaga, No. 8:11-cv-0031-CJC, ECF No. 49.
2

6

threat of violence or illegal acts on behalf of a hostile
foreign power.” S. SELECT COMMITTEE TO STUDY
GOVERNMENTAL OPERATIONS WITH RESPECT TO
INTELLIGENCE ACTIVITIES, BOOK II: INTELLIGENCE
ACTIVITIES AND THE RIGHTS OF AMERICANS, S. REP. NO.
94-755, at 5 (1976). This included the use of secret
informants to collect “vast amounts of information
about the personal lives, views, and associations of
American citizens.” Id.
The Committee recommended legislation that
would “make clear to the Executive branch that
[Congress] will not condone . . . any theory of inherent
or implied authority to violate the Constitution . . . or
any other statutes,” id. at 297, by enacting “a
comprehensive legislative charter” that would
“provide the exclusive legal authority for domestic
security activities.” Id. at 297. In particular, it urged
the creation of civil remedies for unlawful
surveillance, both to “afford effective redress to people
who are injured by improper federal intelligence
activity” and “to deter improper intelligence activity.”
Id. at 336. The Committee also believed it important
for “courts . . . to fashion discovery procedures,
including inspections of materials in chambers . . . to
allow plaintiffs with substantial claims to uncover
enough factual material to argue their case, while
protecting the secrecy of governmental information in
which there is a legitimate security interest.” Id. at
337.
Congress responded by enacting the Foreign
Intelligence Surveillance Act (FISA), 50 U.S.C. 1801
et seq., to bring “electronic surveillance” for national
security purposes under judicial control. FISA
established substantive rules to govern electronic
surveillance conducted in the name of national
7

security, as well as a civil remedy and litigation
procedures to ensure redress when those rules are
violated.
FISA sets out comprehensive procedures for
how courts should handle information gathered from
electronic surveillance in litigation. See 50 U.S.C.
1806. Most relevant here, “[w]henever the
Government intends to . . . use . . . in any . . .
proceeding in or before any court . . . information
obtained or derived from an electronic surveillance,” it
must notify the person surveilled and the court of its
intent. 50 U.S.C. 1806(c). If “the Attorney General
files an affidavit under oath that disclosure or an
adversary hearing would harm the national security,”
FISA mandates that the court “shall, notwithstanding
any other law, . . . review in camera and ex parte the
application, order, and such other materials relating
to the surveillance as may be necessary to determine
whether the surveillance of the aggrieved person was
lawfully authorized and conducted.” Id. at 1806(f)
(emphasis added).
Section 1806(f)’s in camera review procedures
are also triggered whenever “any motion or request is
made by an aggrieved person pursuant to any other
statute . . . to discover, obtain, or suppress evidence or
information obtained or derived from electronic
surveillance.” Id.
Section 1806(g) provides that if “the United
States district court pursuant to subsection (f)
determines that the surveillance was not lawfully
authorized or conducted, it shall [inter alia] grant the
motion of the aggrieved person.” 50 U.S.C. 1806(g). “If
the court determines that the surveillance was
lawfully authorized and conducted, it shall deny the
8

motion of the aggrieved person except to the extent
that due process requires discovery or disclosure.” Id.
Finally, FISA provides both criminal and civil
enforcement mechanisms to ensure compliance with
its rules. It criminalizes the intentional collection or
sharing of electronic surveillance conducted outside
the authority of FISA (and certain other statutes). 50
U.S.C. 1809(a). And it establishes a civil cause of
action for any “aggrieved person . . . who has been
subjected to an electronic surveillance or about whom
information obtained by electronic surveillance of
such person has been disclosed or used in violation of
section 1809.” 50 U.S.C. 1810. Victims of unlawful
surveillance may recover damages, attorney’s fees,
and costs. Id. at 1810(a)–(c).
C.

PROCEDURAL HISTORY
1.

District Court

Respondents sued the United States, the FBI
(collectively “the Government”), and several
individual officers (the “Individual Capacity
Respondents”) responsible for Monteilh’s actions.
Respondents broadly alleged two types of unlawful
conduct: unconstitutional searches (“search claims”)
and unlawful discrimination on the basis of religion or
burden on religious practice (“religion claims”).
Respondents sought damages, declaratory relief, and
expungement or disclosure of the records of unlawful
surveillance, under the First and Fourth
Amendments, 42 U.S.C. 1985, 50 U.S.C. 1810 (FISA),
the Religious Freedom Restoration Act, the Privacy
Act, and several California state law torts brought
under the Federal Tort Claims Act. FAC at ¶¶ 226–
260, Fazaga, No. 8:11-cv-0031-CJC, ECF No. 49.
9

The
Government
moved
to
dismiss
Respondents’ claims on various grounds, and, relevant
here, invoked the state secrets privilege to support
dismissal of the religion claims. Motion to Dismiss
Am. Compl. and for Summary Judgment, at 46–52,
Fazaga, No. 8:11-cv-0031-CJC, ECF No. 55. The
Government emphasized that its assertion of the
privilege was “limited” in two ways. Id. at 3. First, it
did not assert the privilege with respect to much of the
evidence collected by its informant, noting that it had
previously disclosed that Monteilh collected “audio
and video information,” had previously produced some
of that information in other proceedings, and
“expect[ed] that the majority of the audio and video
will be available in connection with further
proceedings” in this case. Id. at 4–5. It claimed the
privilege only over three categories of information: (1)
evidence identifying whether anyone “was or was not
the subject of an FBI counterterrorism investigation,”
(2) the “reasons for” and “results” of any FBI
counterterrorism investigation, and (3) information
“that could tend to reveal whether particular sources
and methods were used in a counterterrorism
investigation.” Id. at 43.
Second, the Government did not move to
dismiss the entire case based on the state secrets
privilege, but only the religion claims. Pet’r App. 15a.
Invoking United States v. Reynolds, 345 U.S. 1, 6–7
(1953), it asserted, inter alia, that the privileged
materials would provide a “valid defense” to the
religion claims, and because it could not disclose those
materials, the court should rule in its favor by
dismissing those claims. Pet’r App. 15a; Mot. to
Dismiss, at 50–51, Fazaga, No. 8:11-cv-0031-CJC,
ECF No. 55 (citing Mohamed v. Jeppesen, 614 F.3d
10

1070, 1083 (9th Cir. 2010)). The Government did not
seek dismissal of the entire case under Totten v.
United States, 92 U.S. 105 (1875), for cases whose very
subject matter is a state secret. It did not seek to
dismiss the search claims based on privilege,
representing that “[a]t least at this stage of the
proceedings, sufficient non-privileged evidence may
be available to litigate these claims should they
otherwise survive motions to dismiss on non-privilege
grounds.” Mot. to Dismiss, at 4, Fazaga, No. 8:11-cv0031-CJC, ECF No. 55.
The district court granted the Government’s
motion to dismiss the religion claims on state secrets,
and went further, dismissing claims the Government
had not moved to dismiss on grounds of secrecy. Pet’r
App. 16a. After examining ex parte a classified
memorandum and accompanying declarations, the
district court concluded that this case “involves
intelligence that, if disclosed, would significantly
compromise national security,” id., and that because
the Government would require that privileged
information to defend itself, “litigation of this action
would certainly require or, at the very least, greatly
risk disclosure of secret information, such that
dismissal at this stage of the proceeding is required,”
id. at 165a–66a. The court further held that dismissal
was warranted because “privileged and nonprivileged
information are inextricably intertwined, such that
litigating the instant case to judgment on the merits
would present an unacceptable risk of disclosing state
secrets.” Id. at 175a–76a. On that basis, the district
court dismissed not only the religion claims, but every
other claim except for Respondents’ claim under
Section 1810 of FISA.

11

2.

The Court of Appeals

The court of appeals unanimously affirmed in
part, reversed in part, and remanded. Of relevance
here, the court held the district court erred in
dismissing the search claims the Government had not
sought to dismiss on state secrets grounds because
only the Government can assert that privilege. Pet’r
App. 42a–44a. And it reversed the district court’s
dismissal of Respondents’ religion claims because it
held that FISA displaced the state secrets privilege, at
least at this preliminary stage. Pet’r App. 46a–67a.
The court held that, in cases involving secret
information related to electronic surveillance,
Congress displaced the “dismissal remedy” that
sometimes accompanies the state secrets privilege
with FISA’s procedures for ex parte in camera review.
Id. at 46a–55a. As the court of appeals explained,
when the Attorney General asserts that disclosure of
information related to electronic surveillance would
threaten national security, FISA “speaks directly to
the question otherwise answered by federal common
law” concerning how a court should proceed. Instead
of outright dismissal under the state secrets privilege
without any consideration of the merits, FISA
provides for in camera ex parte review so that the
court can determine if the surveillance was lawfully
authorized and conducted. Id. at 48a (internal
quotations omitted). The court noted that FISA
protects the same interests as the Reynolds privilege,
with a comprehensive structure manifesting
Congressional intent to replace outright dismissal
with ex parte in camera judicial review where the
legality of secret electronic surveillance is at issue. Id.
at 50a–52a.
12

As applied here, the court of appeals pointed to
two reasons why Section 1806(f) authorizes the
district court to review secret information ex parte
and in camera. First, the Government sought to “use”
information related to electronic surveillance when it
asserted that it needed the information to defend
against Respondents’ allegations and sought
dismissal on that basis. Id. at 57a–58a. Second,
Respondents’ Prayer for Relief had sought the
expungement or, alternatively, the return of the
illegally-obtained surveillance records. The court of
appeals held that Respondents’ alternative request
constitutes a “request . . . pursuant to any other
statute or rule of the United States . . . to discover,
obtain, or suppress evidence or information obtained
or derived from electronic surveillance under this
chapter.” Id. at 58a–59a (citing 50 U.S.C. 1806(f)).
The court further held that the district court
should utilize FISA’s procedures to adjudicate the
merits of Respondents’ claims. Section 1806(f)
authorizes use of its in camera ex parte review
procedures “as may be necessary to determine
whether the surveillance of the aggrieved person was
lawfully authorized and conducted.” 50 U.S.C. 1806(f).
The court noted that “all of [Respondents’] legal
causes of action relate to electronic surveillance, at
least for the most part, and in nearly all instances
entirely, and thus require a determination as to the
lawfulness of the surveillance.” Pet’r App. 93a.
Moreover, it continued, “1806(f) provides that the
district court may consider ‘other materials relating to
the surveillance’” as necessary to determine if it “was
lawfully authorized and conducted.” Id. at 94a. And it
concluded that “it is far from clear” that even the
claims that might encompass more than electronic
13

surveillance would, “as actually litigated, . . . involve
more than the electronic surveillance that is otherwise
the focus of the lawsuit.” Id.
The court therefore held that the district court
may be able to assess the lawfulness of all of the
conduct Respondents have challenged using Section
1806(f)’s in camera ex parte procedures. But the court
expressly permitted the Government to reassert the
state secrets privilege if Respondents sought to apply
FISA’s procedures to secret information not relating
to electronic surveillance, or if such surveillance
“drops out of consideration” from the case for any
reason. Id. at 95a–96a.
The court denied the Government’s request for
rehearing en banc. In doing so, it again made clear
that its decision required only ex parte in camera
review, not disclosure to Respondents of any secret
evidence. In fact, the panel members noted that “in
the unprecedented event that a district court does
order disclosure, nothing in the panel opinion
prevents the government from invoking the state
secrets privilege’s dismissal remedy as a backstop at
that juncture.” Id. at 100a n.1 (Gould and Berzon, JJ.,
concurring in denial of rehearing en banc) (emphasis
in original).
3.

District Court Proceedings on
Remand

After the court of appeals’ mandate issued, the
district court ordered the parties to address how
proceedings should go forward. Resp’t Supp. App. 1a.
Respondents stated their intent to seek
discovery on their search claims, which the
Government had not sought to dismiss based on the
Reynolds privilege. This discovery would include
14

audio and video recordings the informant had made of
conversations to which he was not a party, and video
recordings he had made in sensitive locations,
including mosques and homes. Id. at 6a–8a.
Respondents noted the Government had previously
represented that “[t]he FBI expects that the majority
of the audio and video [collected by their informant]
will be available in connection with further
proceedings.” Id. at 7a (quoting Mot. to Dismiss, at 5,
Fazaga, No. 8:11-cv-0031-CJC, ECF No. 55).
As to their religion claims, Respondents stated
they would move for summary judgment without
relying on any purportedly secret evidence, as they
could prove their claims through publicly available
information, including Monteilh’s sworn statements.
Id. at 14a.
The
Government
objected
to
further
proceedings prior to resolution of any litigation in this
Court, raising three principal arguments. First, it
objected to Respondents’ request to move for summary
judgment on the religion claims, asserting that it
wanted first to ask this Court to affirm the district
court’s authority to dismiss them outright. Id. at 32a–
33a.
Second, the Government argued for the first
time that Respondents must present non-privileged
evidence that they are “aggrieved persons” within the
meaning of FISA to obtain the benefit of its ex parte
in camera procedures. Id. at 20a–21a, 35a–37a. It
claimed that Respondents had not made that showing.
Third, the Government stated that it might
assert the state secrets privilege as a basis to dismiss
Respondents’ search claims as well, although it had
15

not previously done so. Compare Pet’r App. 41a with
Resp’t Supp. App. 28a–32a.
The district court stayed all proceedings
pending completion of litigation in this Court. Fazaga,
No. 8:11-cv-0031-CJC (C.D. Cal. Sep. 29, 2020), ECF
No. 168.
REASONS FOR DENYING THE PETITION
This Court should deny certiorari for four
central reasons: the petition is premature; the
decision below does not conflict with any other
decision; there is no risk of public disclosure of secret
information; and the decision below is correct.
I.

CERTIORARI IS PREMATURE.

Certiorari is premature for four reasons. First,
the Government has raised a threshold objection that,
if successful, would obviate the need to resolve the
Question Presented. In briefing to the district court
concerning how the litigation should proceed on
remand, the Government stated, “the first issue to be
litigated on any remand – before any attempt to
litigate any claims utilizing the FISA Section 1806(f)
process – is whether [Respondents] can establish
factually their ‘aggrieved’ status without privileged
information.” See Resp’t Supp. App. 38a; id. at 19a–
20a (arguing Respondents must first establish “their
standing as ‘aggrieved’ persons for purposes of”
Section 1806(f)). If the district court concludes that
Respondents cannot invoke FISA’s procedures, it will
have no occasion to apply them to any secret
information in this case.
The Government has prevailed on just this
argument in two cases raising similar issues.
16

Wikimedia Found. v. Nat’l Sec. Agency/Cent. Sec.
Serv., 427 F. Supp. 3d 582, 615 (D. Md. 2019), appeal
docketed No. 20-1191 (4th Cir. Feb. 21, 2020); Jewel v.
Nat’l Sec. Agency, No. C 08–04373, at *24 (N.D. Cal.
April 25, 2019), appeal docketed, No. 19-16066 (9th
Cir. May 21, 2019). If it also prevails here, no 1806(f)
review will take place, obviating the need to address
the Question Presented.
Second, the decision below addressed only the
threshold question whether Congress displaced the
“dismissal remedy” of the Reynolds privilege with the
in camera ex parte review procedures enacted in FISA
for review of sensitive information related to
electronic surveillance. The court expressly permitted
the Government to re-assert the privilege in at least
three different scenarios: the Government may make
a “specifically tailored” privilege assertion if the
information relevant to Respondents’ religion claims
turns out not to overlap with information relating to
electronic surveillance, Pet’r App. 95a; if the district
court’s in camera ex parte review establishes that no
electronic surveillance of Respondents in fact
occurred, id.; or if the district court orders disclosures
to Respondents under FISA, id. at 100a n.1. See also
Pet. at 13, 27. Thus, the decision below preserves the
Government’s ability to re-assert the state secrets
privilege under several circumstances. Without
further litigation, the extent to which the privilege
may ultimately apply remains uncertain.
Third, it remains unclear what the scope of the
Government’s privilege assertions will be, as it has
stated on remand that it will likely assert the state
secrets privilege to dismiss the search claims as well,
despite having previously stated that those claims
could likely go forward. Compare Pet’r App. 41a; Mot.
17

to Dismiss, at 5, Fazaga, No. 8:11-cv-0031-CJC, ECF
No. 55 with Resp’t Supp. App. 28a–33a. Awaiting
further proceedings in district court will therefore
clarify the full scope of the privilege the Government
intends to assert.
Fourth, it is too early to tell whether secret
information will in fact be necessary—or even
relevant—to litigate Respondents’ religion claims.
Respondents have repeatedly stated that they will
prove a prima facie case of religious discrimination
based entirely on publicly available evidence,
including Monteilh’s admissions. See, e.g., Resp’t
Supp. App. 13a–16a.3 They need not prove they were
the “subjects” of the FBI’s investigation to make a
prima facie case on the religion claims in light of their
evidence that the FBI instructed Monteilh to surveil
people, including them, because of their religion.
Emp’t Div. v. Smith, 494 U.S. 872, 886 n.3 (1990)
(“Just as we subject to the most exacting scrutiny laws
that make classifications based on race, or on the
content of speech, so too we strictly scrutinize
governmental classifications based on religion.”)
(citations omitted). It would be premature for this
Court to intervene before Respondents have even filed
their motion for summary judgment. Without seeing
that motion, the Government has no ability to
accurately assess whether it needs to rely on secret
information to respond.
In short, too many critical questions are
unresolved to warrant this Court’s review. It remains
See also Pls.’ Br. at 37–41, Fazaga v. FBI, 965 F.3d 1015 (9th
Cir. 2020) (No. 12-56867, No. 12-56874, No. 13-55017), ECF No.
32-2; Pls.’ Reply Br. at 13, Fazaga, 965 F.3d 1015 (9th Cir. 2020)
(No. 12-56867, No. 12-56874, No. 13-55017), ECF No. 85-2.
3

18

to be seen whether the district court will permit
Respondents to invoke FISA’s procedures at all;
whether, once Respondents seek summary judgment,
the Government will even need its privileged
information to respond; whether the Government will
reassert the privilege, as the decision below expressly
permits; and whether the Government will expand its
invocation of the privilege to cover Respondents’
search claims. For all these reasons, the Court should
allow the case to proceed on remand. The Government
can seek review of the Question Presented if and when
it actually becomes necessary to decide, and on a more
complete record. See 50 U.S.C. 1806(h) (defining
certain orders under Section 1806 as final for purposes
of appellate review); U.S. v. Daoud, 755 F.3d 479, 481
(7th Cir. 2014) (exercising appellate authority under
Section 1806(h)).
II.

THERE IS NO CONFLICT WITH THIS
COURT’S PRECEDENT OR ANY OTHER
DECISION.

Certiorari should also be denied because the
decision below creates no conflict with this Court’s
precedent or with any other decision.
The Government errs in contending the
decision below conflicts with Reynolds, 345 U.S. at 6–
7. Pet. 14–15. Reynolds made clear that the state
secrets privilege is a common-law privilege “in the law
of evidence.” 345 U.S. at 6–7. “Reynolds was about the
admission of evidence. It decided a purely evidentiary
dispute by applying evidentiary rules . . . .” General
Dynamics Corp. v. United States, 563 U.S. 478, 485
(2011). Congress has authority to displace federal
common law by statute, as it did in Section 1806(f).
See, e.g., Usery v. Turner Elkhorn Mining Co., 428
19

U.S. 1, 31 (1976); Fed. R. Evid. 501. Reynolds did not
address, much less resolve, the extent to which
Congress displaced the dismissal remedy that
sometimes follows from assertion of the privilege
when it enacted Section 1806(f) two decades after
Reynolds.
The Government conflates the evidentiary rule
recognized in Reynolds with a distinct strand of state
secrets doctrine that recognizes a justiciability bar
requiring dismissal of lawsuits “where the very
subject matter of the action … [i]s a matter of state
secret,” Tenet v. Doe, 544 U.S. 1, 9 (2005) (discussing
Totten) (internal citations omitted). This Court has
described that bar as arising from the federal courts’
“common-law authority to fashion contractual
remedies in Government-contracting disputes”
involving certain subjects, including but not limited to
“alleged contracts to spy.” General Dynamics, 563 U.S.
485–86. Where the Totten bar applies, it requires the
dismissal of the whole lawsuit. But the Government
did not invoke Totten here.4
Nor does the decision below conflict with the
decision of any other court. The only other courts to
consider the question presented have agreed that
FISA preempts the state secrets privilege in national
security cases involving electronic surveillance
against aggrieved persons. Jewel v. Nat’l Sec. Agency,
965 F. Supp. 2d 1090, 1105–06 (N.D. Cal. 2013); In re
Should this Court grant review, Respondents will argue that
Reynolds does not authorize the dismissal remedy because,
where the Reynolds privilege applies, it requires that “[t]he
privileged information is excluded and the trial goes on without
it.” General Dynamics, 563 U.S. at 485.
4

20

NSA Telecomms. Records Litig. (In re NSA), 564 F.
Supp. 2d 1109, 1117–24 (N.D. Cal. 2008). The issue is
also presented in Wikimedia Foundation v. Nat’l Sec.
Agency, No. 20-1191 (4th Cir. Feb. 21, 2020), a
pending appeal in the Fourth Circuit.5
Because the decision below conflicts with no
holding of this Court or any other, certiorari is
unwarranted.
III.

THE DECISION BELOW WILL NOT LEAD
TO PUBLIC DISCLOSURE OF SECRET
INFORMATION.

Denying review now would preserve the
Government’s opportunity for review at a later point
if necessary, while also posing no risk of disclosure of
secret information to Respondents or the public in the
meantime. Even assuming the Government chooses to
submit secret information to the district court
pursuant to FISA rather than simply foregoing its use,
doing so would not result in disclosure to Respondents
or the public. The decision below expressly permits the
Government to reassert the state secrets privilege in
the unlikely event that the district court orders any
such disclosure.
While the Government claims the decision below has already
resulted in litigants seeking to circumvent the state secrets
privilege, Pet. at 30–31, it cites only Jewel v. National Security
Agency, No. 19-16066 (9th Cir.) (filed Oct. 7, 2019), a case that
pre-dates the decision below. Moreover, the pending appeal in
Jewel concerns in part whether the district court appropriately
decided the threshold question whether the plaintiffs are
“aggrieved persons” who may avail themselves of Section
1806(f)—the same argument the Government intends to raise on
remand here.
5

21

The court of appeals made clear that
Respondents should not expect to see any secret
evidence. Pet’r App. 39a. Although Section 1806(f) in
theory permits disclosure of FISA materials to a
litigant, pursuant to a protective order, where
“necessary to determine whether the surveillance of
the aggrieved person was lawfully authorized and
conducted,” no plaintiff or defendant has ever obtained
such disclosure.6 And as noted above, in the unlikely
event that the district court were to order disclosure
to Respondents, the Government may reassert the
state secrets privilege at that time. Pet’r App. 100a
n.1.
Thus, the only possible risk of “disclosure” now
concerns information provided to the federal courts ex
parte and in camera. But there is no reason to believe
that federal courts cannot consider such information
securely. Congress has expressly provided for in
camera ex parte review under FISA, and courts
routinely conduct it. See, e.g., United States v.
Squillacote, 221 F.3d 542, 554 (4th Cir. 2000)
(concerning East German and Russian espionage);
United States v. Abu-Jihaad, 630 F.3d 102, 129 (2d
Cir. 2010) (concerning military deployment
information abroad). Courts use analogous procedures
in other sensitive contexts, including in criminal cases
pursuant to the Classified Information Procedures
Act, see 18 U.S.C. App. 3 § 1 et seq., see, e.g., In re
Courts have recognized that even in the criminal context, the
“due process exceptions of §§ 1806(g) and 1825(h) limit
permissible discovery to that which is constitutionally mandated,
such as the obligations articulated in Brady v. Maryland, 373
U.S. 83 (1963).” United States v. Aziz, 228 F. Supp. 3d 363, 370
(M.D. Pa. 2017); see United States v. Amawi, 531 F. Supp. 2d 832,
837 (N.D. Ohio 2008) (recognizing same).
6

22

Terrorist Bombings of U.S. Embassies in E. Africa,
552 F.3d 93, 115–130 (2d Cir. 2008); United States v.
Lee, 2000 U.S. App. LEXIS 3082, at *5–6 (10th Cir.
Feb. 29, 2000) (utilizing CIPA procedures to protect
nuclear weapons codes, the disclosure of which
“represent[ed] the gravest possible security risk to the
United States”); and civil habeas proceedings
concerning alleged enemy combatants, see, e.g.,
Parhat v. Gates, 532 F.3d 834, 837 n.1 (D.C. Cir. 2008).
Even before FISA’s passage, courts used FISA-like
procedures to adjudicate civil litigation involving
secret military records, see, e.g., Halpern v. United
States, 258 F.2d 36 (2d Cir. 1958), and sensitive
information about electronic surveillance, see, e.g.,
Jabara v. Webster, 691 F.2d 272 (6th Cir. 1982). The
Government’s unfounded concerns about in camera
review of secret information ignore both Congress’s
judgment and the federal courts’ collective experience.
The risk of providing the courts below with
sensitive information utilizing FISA’s ex parte in
camera review procedures must also be assessed in
light of the information the Government has already
submitted to several courts in this case. It made ex
parte in camera submissions to the courts below to
support its privilege assertion and, presumably, to the
FISA court to obtain the orders that authorized at
least some of the electronic surveillance at issue. See
Pet’r App. 165a (district court); Order, Fazaga v. FBI,
965 F.3d 1015 (9th Cir. 2020) (No. 12-56867, No. 1256874, No. 13-55017), ECF No. 104. Moreover,
Reynolds itself requires exacting judicial review of the
privilege assertion, including of potentially secret
information, to satisfy the “skeptical” and “critical”
review the privilege requires. Reynolds, 345 U.S. at
10. See Al-Haramain Islamic Found., Inc. v. Bush, 507
23

F.3d 1190, 1203 (9th Cir. 2007) (noting judicial
“obligation to review the [secret] documents with a
very careful, indeed a skeptical, eye, and not to accept
at face value the government’s claim or justification of
privilege”); Ellsberg v. Mitchell, 709 F.2d 51, 58 (D.C.
Cir. 1983) (“it is essential that the courts continue
critically to examine” assertions of the privilege).
There is little if any additional risk from utilizing
FISA’s in camera ex parte procedures, given the
submissions that have already occurred in this case
about a 15-year-old surveillance operation.
Finally, whatever rule this Court may
eventually establish in other FISA cases, there is
absolutely no risk of disclosure against the
Government’s wishes in this case. Respondents have
stated they will not seek even ex parte in camera
review of secret evidence to prove their affirmative
case. Resp’t Supp. App. 14a. It is the Government, not
Respondents, who seek to use privileged information
here. The Government can always forgo such use if it
believes it too risky even to submit the privileged
information to the court for in camera ex parte review.
And if Respondents win on the merits, their prayer for
relief gives the Government the option to expunge
rather than disclose the records at issue. Thus,
because the secret information is needed, if at all, only
for the Government’s defense, the Government retains
complete control over whether it will rely on privileged
information in this case.7

In that respect, Respondents’ position comports with the
traditional understanding of how evidentiary privileges function.
If the Government prefers not to share its privileged information
even with the Court, it remains entirely free to do so, and the
case will go on without it.
7

24

IV.

THE DECISION BELOW IS CORRECT.

The court of appeals correctly held that
Congress displaced the dismissal remedy of the state
secrets privilege with respect to electronic
surveillance covered by FISA. FISA’s text and
structure unambiguously require that result. To
escape FISA’s plain language, the Government
proposes various limitations that are not only
unsupported by the statutory text, but actually
contravene it. And even if Congress had to provide a
“clear statement,” rather than merely “speak
directly,” to displace the privilege, FISA’s
unambiguous language would satisfy the higher
standard.
A.

FISA
Establishes
Mandatory
Procedures for Courts to Utilize
When Litigation Involves Secret
Information Relating to Electronic
Surveillance.
Through
FISA,
Congress
established
procedures for the district court to utilize when
litigation involves secret information relating to
electronic surveillance. FISA requires a court to use
Section 1806(f)’s procedures in three situations: (1)
when the government intends “to enter into evidence
or otherwise use or disclose” electronic surveillance
information pursuant to sections 1806(c) and (d); (2)
when a person against whom evidence was “obtained
or derived” from electronic surveillance moves “to
suppress the evidence” pursuant to section 1806(e); or
(3) “whenever any motion or request is made by an
aggrieved person pursuant to any other statute or rule
of the United States” to “discover or obtain
. . . materials relating to” or “information obtained or
25

derived from” electronic surveillance “in any trial,
hearing, or other proceeding.”
If any one of these conditions is satisfied, and
the Government asserts that “disclosure or an
adversary hearing would harm the national security,”
Section
1806(f)
requires
that
the
court
“shall . . . review in camera and ex parte the
application, order, and such other materials relating
to the surveillance as may be necessary to determine
whether the surveillance of the aggrieved person was
lawfully authorized and conducted.” The court of
appeals correctly determined that both the first and
the third conditions apply here, requiring the use of
Section 1806(f)’s procedures rather than the Reynolds
privilege’s dismissal remedy.
The Government’s assertion of the Reynolds
privilege to seek dismissal of Respondents’ religion
claims constitutes the “use” of secret surveillance
information to defend itself against those claims. Pet’r
App. 57a–58a. The Government objects that it seeks
only to protect the confidentiality of information, not
to “use” it, Pet. at 19, but that is inaccurate. The
Government has argued that the existence of the
privileged information requires that the district court
dismiss Respondents’ religion claims. It seeks not
merely to exclude evidence, but to win dismissal of the
religion claims because, inter alia, it asserts the need
to rely on secret information in its defense. This
constitutes a “use” of the privileged information.8

In contrast, Respondents have not sought to use the secret
information to win this case. They have not sought it in discovery
and have disclaimed any intent to introduce it in the first
instance. Resp’t Supp. App. 9a–10a, 14a–15a. See also supra n.3.
8

26

The ordinary meaning of “use” is broad, and
includes “to put into action or service,” or “to carry out
a purpose or actions by means of.” Use, MerriamWebster (2021), https://tinyurl.com/4d94ywbu. By
relying on secret information to support its motion to
dismiss, the Government “uses” that information. It
“puts [it] into service” in order to “carry out” the
Government’s “purpose” of winning dismissal.
That Section 1806(c) adds the word “otherwise”
before “use” further demonstrates that Congress
intended “use” to be interpreted capaciously.
“Otherwise” operates as a catch-all, enlarging the
actions
to
which
“use”
refers.
Otherwise,
Merriam-Webster (2021), https://tinyurl.com/6epn2c2
(defining “other-wise” as including “a different way or
manner,” “in different circumstances,” and “in other
respects”).
Accordingly, the court of appeals correctly
determined that where the Government seeks to
dismiss claims it “use[s]” the secret information,
thereby triggering FISA’s procedures. Pet’r App. 57a–
58a.
The Government argues that FISA’s ex parte in
camera review procedures were intended to apply only
to suppression motions or where the Government
itself seeks to introduce secret information as
evidence. Pet. at 17–18, 20–21, 23–25. But those
limitations are found nowhere in the text, and
contravene its plain meaning. FISA’s review
procedures apply not only when the Government
wants to “enter into evidence” secret information, but
also whenever it wants to “otherwise use” it “against
an aggrieved person” “in any trial, hearing, or other
proceeding in or before any court, department, officer,
27

agency, regulatory body, or other authority.” 50 U.S.C.
1806(c); see id. 1806(f); H.R. Rep. No. 95-1720, at 32
(1978) (Conf. Rep.) (Section 1806(f) to be used in “both
criminal and civil cases”).
The court of appeals also correctly concluded
that this case satisfies an independent requirement
for triggering Section 1806(f), because Respondents’
prayer for relief seeking “destr[uction] or return [of]
any information gathered through the unlawful
surveillance program” constitutes a “request” under
Section 1806(f) to “obtain” electronic surveillance
information. Pet’r App. 58a.
The Government responds by proposing yet
another limitation on Section 1806(f) found nowhere
in its text. It contends that the statute’s reference to
“any motion or request . . . by an aggrieved person”
applies only to “procedural motions.” Pet. at 21. But
the text contains no such limitation. Similarly, under
Section 1806(g), “[i]f the . . . court pursuant to
subsection (f) determines that the surveillance was
not
lawfully
authorized
or
conducted,
it
shall . . . suppress the evidence which was unlawfully
obtained or derived from electronic surveillance of the
aggrieved person or otherwise grant the motion of the
aggrieved person.” (Emphasis added). That broad
language—“otherwise grant the motion”—confirms
that the phrase “any motion” in neighboring 1806(f)
applies to any motion that requests disclosure of
“information obtained or derived from electronic
surveillance,” including a motion for permanent
injunctive relief that Respondents could seek if they
prevailed, regardless of whether such a motion could
be characterized as substantive rather than
procedural.
28

The Government also maintains that Section
1806(f) procedures can be used to determine whether
surveillance was lawful only for purposes of
admissibility, and not to decide the merits of a claim
challenging illegal surveillance, even if brought under
Section 1810. Pet. at 21–22. But again, the text
contains no such limitation. It broadly requires courts
to determine “whether the surveillance of the
aggrieved person was lawfully authorized and
conducted.” 50 U.S.C. 1806(f) (emphasis added). Such
determinations may go to admissibility, but they may
also go to the merits. The statute nowhere restricts
the use of its procedures to the former.
The Government’s counter-textual reading of
1806(f) would also effectively nullify Section 1810.
That provision permits an aggrieved person to sue any
individual who violates FISA’s electronic surveillance
provisions for compensatory and punitive damages.
Virtually every Section 1810 claim will implicate
sensitive information about the Government’s
surveillance. As the decision below recognized,
It would make no sense for Congress to
pass a comprehensive law concerning
foreign
intelligence
surveillance,
expressly enable aggrieved persons to
sue for damages when that surveillance
is unauthorized, see id. § 1810, and
provide procedures deemed adequate for
the review of national security-related
evidence, see id. § 1806(f), but not intend
for those very procedures to be used
when an aggrieved person sues for
damages under FISA’s civil enforcement
mechanism.
29

Pet’r App. 61a. And, although the Government has not
(yet) moved to dismiss Respondents’ Section 1810
claim under Reynolds, on its theory it could dismiss
this and virtually every other Section 1810 lawsuit by
invoking state secrets.
B.

Section
1806(f)
Displaces
the
Dismissal Remedy of the State
Secrets Privilege.
The court of appeals also correctly concluded
that the procedures Congress established for invoking
Section 1806(f) displace the dismissal remedy of the
state secrets privilege.
Congress abrogates a common-law doctrine,
such as the judicially created state secrets privilege, if
it “‘speak[s] directly’ to the question addressed by the
common law.” United States v. Texas, 507 U.S. 529,
534 (1993). Congress has authority to regulate
surveillance affecting U.S. persons undertaken in the
name of national security, and that authority
necessarily includes the lesser power to set procedural
rules in civil litigation challenging such surveillance.
See also 50 U.S.C. 1804, 1881(a)–(c) (requiring
disclosure of FISA information to courts in other
proceedings).
As explained above, when it enacted FISA’s
unambiguous text, Congress spoke clearly and
directly enough to displace the privilege’s dismissal
remedy in cases involving sensitive information
relating to electronic surveillance. Section 1806(f)
mandates use of its procedures “[w]henever” a court is
notified pursuant to Section 1806(c), or “whenever any
motion or request is made . . . pursuant to any statute
or rule of the United States” to discover or obtain such
information. 50 U.S.C. 1806(f) (emphases added).
30

Those provisions clearly govern this case. Moreover,
as the decision below observed, the procedures in
Section 1806(f) are “triggered by a process—the filing
of an affidavit under oath by the Attorney General—
nearly identical to the process that triggers
application of the state secrets privilege, a formal
assertion by the head of the relevant department.”
Pet’r App. 51a. Rather than allowing the executive
branch to exclude evidence and obtain dismissal at the
threshold, the statute directs that the court “shall,
notwithstanding any other law,” utilize FISA’s in
camera ex parte review procedures “to determine
whether the surveillance of the aggrieved person was
lawfully authorized and conducted.” 50 U.S.C. 1806(f)
(emphasis added). Thus, “notwithstanding [the] law”
of state secrets, Congress specified an alternative
procedure to provide redress for unlawful electronic
surveillance. Because Section 1806(f) speaks directly
to the circumstances in which the dismissal remedy of
the state secrets privilege might otherwise apply, and
because it explicitly controls “notwithstanding any
other law,” it displaces the privilege.
The Government contends that a “much clearer
statement” should be required to displace the
dismissal remedy, because, in its view, the state
secrets privilege is “constitutionally based.” Pet. at 29.
But this argument conflates the Reynolds privilege,
which is a common-law rule of evidence over which
Congress undoubtedly has authority, with the Totten
bar, which the Government has not invoked. See, e.g.,
Pet. at 2, 28; Pet’r App. 15a, 42a–45a, 47a n.25. As this
Court explained in General Dynamics, while the
justiciability bar in Totten forecloses all litigation
“where the very subject matter of the action … [is] a
matter of state secret,” Reynolds is only “about the
31

admission of evidence,” and “decided a purely
evidentiary dispute by applying evidentiary rules.”
General Dynamics, 563 U.S. at 485.
In any event, for the reasons explained above,
FISA’s text and structure speak clearly enough to
satisfy any applicable standard.

C.

The Individual Capacity Respondents’
Seventh Amendment and Due Process
Concerns are Premature and Lack
Merit.
The Individual Capacity Respondents have not
petitioned for certiorari, but attempt to raise Seventh
Amendment and Due Process arguments in support of
the Government’s petition. They argue that these
concerns are relevant, notwithstanding their absence
from the Question Presented, because they should
guide the purely statutory question raised here. That
is wrong for several reasons.
First, the constitutional concerns they raise are
not relevant to the question of statutory
interpretation presented. They do not argue that the
court of appeals’ interpretation renders Section
1806(f) facially unconstitutional. They object only to
its possible application in this case. But such concerns
are properly addressed through “as applied”
challenges, and do not support interpreting the
statute against its clear text.
The prematurity objection to the Individual
Capacity Respondents’ arguments has particular force
here, where nothing in the decision below forecloses a
jury trial on whatever portions of the claims must be
tried to a jury under the Seventh Amendment. The
court of appeals’ ruling requires only that the district
court use FISA’s procedures to address the
32

information related to electronic surveillance as to
which the Government asserts the state secrets
privilege. It does not determine how the trial court
might, at a later stage, present factual issues to a jury.
The Individual Capacity Respondents cite no case
suggesting FISA’s procedures could not be tailored to
satisfy the Seventh Amendment. The Seventh
Amendment permits district courts to grant summary
judgment, Fidelity & Deposit Co. of Maryland v.
United States, 187 U.S. 315, 319–21 (1902), and to
direct verdicts, Galloway v. United States, 319 U.S.
372, 388–93 (1943). No court has held that the valid
assertion of the state secrets privilege violates a
plaintiff’s Seventh Amendment right, even though it
leads to the exclusion of evidence and, sometimes, the
dismissal of claims that would otherwise go to a jury.
See, e.g., Reynolds, 345 U.S. at 10; Jeppesen, 614 F.3d
at 1076.
If and when this case nears trial, the Individual
Capacity Respondents will be free to raise a Seventh
Amendment objection if they object to the district
court’s plan for conducting the trial. Pet’r App. 65a.
Second, FISA’s in camera ex parte review
procedures have repeatedly been upheld against
constitutional challenge in criminal cases. Courts
routinely reject due process challenges to the use of
Section 1806(f) procedures to adjudicate the legality of
electronic surveillance. See, e.g., Abu-Jihaad, 630
F.3d at 129 (rejecting due process challenge to in
camera and ex parte review of legality of electronic
surveillance); United States v. Damrah, 412 F.3d 618,
624 (6th Cir. 2005) (use of Section 1806 procedures
without adversary process to review “the legality of
the FISA surveillance” does not violate due process).
33

Accordingly, to the extent the application of
FISA might raise constitutional concerns in a
particular case, those concerns are appropriately
addressed through as-applied challenges to the trial of
specific claims, based on the particular evidence and
procedures at issue, and upon a complete record. The
speculative character of the Individual Defendants’
arguments only underscores that the Government has
sought this Court’s intervention prematurely.
CONCLUSION
For the foregoing reasons the petition for writ
of certiorari should be denied.
Respectfully Submitted,
Dan Stormer
Shaleen Shanbhag
HADSELL STORMER RENICK
& DAI LLP
128 North Fair Oaks
Avenue
Pasadena, CA 91103

Ahilan Arulanantham
Counsel of Record
UCLA SCHOOL OF LAW
385 Charles Young Drive East
Los Angeles, CA 90095
(310) 825-1029
arulanantham@law.ucla.edu

Amr Shabaik
Dina Chehata
CAIR-LOS ANGELES
2180 W. Crescent Avenue,
Suite F
Anaheim, CA 92801

Peter Bibring
Mohammad Tajsar
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West Eighth Street
Los Angeles, CA 90017

Date: April 21, 2021

34

APPENDIX

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
YASSIR FAZAGA, et al., Plaintiffs,
v.
FEDERAL BUREAU OF INVESTIGATION et al.,
Defendants.
CASE NO.: 8:11-cv-00301-CJC-VBK
_______________________
JOINT STATUS REPORT
Pursuant to this Court’s order issued at the
status conference held on August 18, 2020, the Parties
submit the following joint status report describing
their proposals for how to proceed.
I.

PLAINTIFFS’ STATEMENT

The Ninth Circuit’s amended opinion and order
affirmed the dismissal of four of Plaintiffs’ eleven
claims, remanded the other seven claims for further
proceedings, and denied Defendants’ petition for
rehearing en banc. See Fazaga v. Fed. Bureau of
Investigation, 965 F.3d 1015 (9th Cir. 2020). The
Defendants have represented that they have not
decided whether or not to file a petition for writ of
certiorari to the Supreme Court.
Because significant portions of this case would
be unaffected by any proceedings in the Supreme
Court, and because the delay during the pendency of
those proceedings could be substantial, Plaintiffs
propose that some aspects of this litigation continue
1a

while Defendants decide whether to seek certiorari,
and if they do so, during the time the parties will be
briefing the petition for certiorari before the Supreme
Court.1
Further proceedings should include, at a
minimum, discovery for information over which the
Government has not asserted the state secrets
privilege. In particular, the Ninth Circuit’s decision
reinstates Plaintiffs’ claims arising from two
categories of information over which the Government
has not asserted the privilege: the informant Craig
Monteilh’s recordings of conversations to which he
was not a party, and his video recordings of certain
private spaces. See Fazaga, 965 F.3d at 1032, 1034–
38, 1053–55 (describing three categories of
information, one of which is “recordings made by
Monteilh of conversations to which he was not a party”
and holding that Plaintiffs have stated claim against
the Government as to those recordings); id. at 1038,
1035 n.16 (describing allegation that agents
“instructed Monteilh to use a video camera hidden in
a shirt button to record the interior of OCIF” as among
allegations stating a claim under Fourth
Amendment). The Government has not asserted state
secrets over these categories of information, and there
is no other remaining basis for dismissing the claims
arising from them.
Defendants propose staying litigation on these
and other issues while the process for certiorari goes
forward, but that will involve substantial additional
delay. The deadline to file the petition for certiorari is
Nothing in this motion discusses how Plaintiffs may wish to
proceed after any petition for certiorari is either granted or
denied.
1

2a

December 17, 2020. See infra at 17. Given the effect of
the holidays on Plaintiffs’ response time, the Supreme
Court would likely decide the petition no sooner than
the spring of 2021. If the Court grants the petition,
argument would presumably be set no earlier than
October of 2021, meaning a decision would be unlikely
before December of 2021, and could come as late as
June 2022.
Therefore, in order to efficiently use what could
easily be more than six months before anyone knows
whether or not the Supreme Court will grant
certiorari, and to prevent further suspension in an
already long-delayed case, Plaintiffs request the Court
allow the parties to brief the remaining pleading
disputes, begin discovery of information not covered
by the Government’s existing state secrets assertion,
and allow further motion practice on those claims
which the Government did move to dismiss under the
Reynolds state secrets privilege.
To be clear, Plaintiffs do not propose that the
Court consider any evidence over which the
Government has asserted that privilege, even through
the FISA process that governs under the Ninth
Circuit’s decision.
A.

Status of Plaintiffs’ claims

Plaintiffs pled eleven claims. They can be
broadly divided between those alleging unlawful
religious discrimination, those alleging unlawful
search and seizure, and the hybrid claims under the
Federal Tort Claims Act (FTCA). The Government
sought dismissal under the Reynolds state secrets
privilege of the discrimination claims but not the
search claims. Under the Ninth Circuit's decision,

3a

seven of Plaintiffs ' original eleven claims survive, as
follows:
Claim

Harm

Defendant
s

Status

1st COA
(1st – A
Establishment;
Bivens)

Religious
Discrimination

All
individual
capacity
Defendants.

Survives
in part.

1st COA (1st A
–
Establishment;
Injunctive)

Religious
Discrimination

All
individual
capacity
Defendants.

Survives.

2nd COA
(§1985 –
Establishment)

Religious
Discrimination

All
individual
capacity
Defendants.

Dismissed
.

3rd COA (1st A
–Free Exercise;
Bivens)

Religious
Discrimination

All
individual
capacity
Defendants.

Survives
in part.

3rd COA (1st A
–Free Exercise)

Religious
Discrimination

All official
capacity
Defendants.

Survives.

4a

Panel Opinion
Result
Assess Bivens
on remand
under Ziglar v.
Abassi; consider
qualified
immunity.
Reynolds
privilege
displaced by
FISA, 50 U.S.C.
§ 1806(f);
expungement
remedy
available.
Held QI re:
intra-corporate
conspiracy rule
applies against
Agent
Defendants.
Assess Bivens
on remand
under Ziglar v.
Abassi; consider
qualified
immunity.
Reynolds
privilege
displaced by
FISA, 50 U.S.C.
§ 1806(f);
expungement
remedy
available.

Held QI re:
intra-corporate
conspiracy rule
applies against
Agent
Defendants.
Dismissed on QI
as to Agent
Defendants;
Survives as to
Government
Defendants
Assess Bivens
on remand
under Ziglar v.
Abassi; consider
qualified
immunity.
Reynolds
privilege
displaced by
FISA, 50 U.S.C.
§ 1806(f);
expungement
remedy
available.
Held QI re:
intra-corporate
conspiracy rule
applies against
Agent
Defendants.

4th COA (§
1985 –
Establishment)

Religious
Discrimination

All
individual
capacity
Defendants.

5th COA; RFRA

Religious
Discrimination

All
Defendants.

Survives
in part.

6th COA: EP
(Bivens)

Religious
Discrimination

All
individual
capacity
Defendants.

Survives
in part.

6th COA: EP
(Injunctive)

Religious
Discrimination

All official
capacity
Defendants.

Survives.

7th COA: §
1985 (EP)

Religious
Discrimination

All
individual
capacity
Defendants.

Dismissed
.

8th COA:
Privacy Act

Religious
Discrimination

FBI

Dismissed
.

Dismissed.

Survives
in part.

Dismissed on QI
and Iqbal
grounds, except
against Allen &
Armstrong as to
potions of
Fazaga’s and
AbdelRahim’s
claims.

9th COA: 4th A
(Bivens)

Unlawful
Search

All
individual
capacity
Defendants.

5a

Dismissed
.

9th COA: 4th A
(Inj.)

Unlawful
Search

All official
capacity
Defendants.

Survives.

10th COA:
FISA

Unlawful
Search

As Filed –
All
Defendants

Survives
in Part.

11th COA:
FTCA

Unlawful
Search and
Religious
Discrimination

United
States

Survives.

Reynolds
privilege
displaced by
FISA, 50 U.S.C.
§ 1806(f);
expungement
remedy
available.
Dismissed on QI
and Iqbal
grouns, and
sovereign
immunity
grounds, except
against Allen &
Armstrong as to
portions of
Fazaga’s and
AbdelRahim’s
claims.
Remanded for
application of
discretionary
function
exception after
merits
determination.

B.

Plaintiffs' Proposal for How to
Proceed
Plaintiffs request the Court allow certain
limited litigation to continue during the pendency of
any Supreme Court briefing on certiorari, as follows:
1.

Search Claims

The Court should permit the parties to proceed
with some litigation on the search claims (the Ninth,
Tenth, and part of the Eleventh Cause of Action). Any
petition for writ of certiorari is likely to focus on the
Ninth Circuit's holding that FISA preempts the
6a

Reynolds state secrets privilege. See Fazaga, 965 F.3d
1015, 1073 (9th Cir. 2020) (Bumatay, J., dissenting).
Significant aspects of the surviving unlawful search
claims will not be affected by resolution of that
question. The Government did not assert the Reynolds
state secrets privilege as to the search claims, and has
never argued-including to the Ninth Circuit- that
those claims should be dismissed. Id. at 1041 ("[T]he
Government Defendants requested dismissal of
Plaintiffs' religion claims in toto-but not the Fourth
Amendment and FISA claims- at the pleading stage").
On the contrary, the Government stated "[t]he FBI
expects that the majority of the audio and video
[collected by their informant Craig Monteilh] will be
available in connection with further proceedings.” See
Dkt. 55 at 22.2
That audio and video will bear on at least two
aspects of the Fourth Amendment claims that will go
forward against the Government (and possibly also
against some Individual Defendants) regardless of
what happens at the Supreme Court: first, Monteilh’s
audio and visual recordings of conversations to which
he was not a party, including, but not limited to, audio
recordings of prayer hall conversations. Fazaga, 965
F.3d at 1034–38. See Dkt. 66 at 14, ¶ 30; id. at 26, ¶
65; id. at 45, ¶ 17; id. at 51, ¶ 17 (declarations of Craig
Monteilh describing leaving audio recording devices in

Although the Government asserts that Supreme Court review
could result in this Court’s prior order “being affirmed,” see infra
at 20, the Government did not defend this Court’s decision to
dismiss the search claims under the state secrets privilege before
the Ninth Circuit. See Reply Br. of Pls.-Appellants, at 42–43, Fed.
Bureau of Investigation, No. 12-56867 (9th Cir. July 7, 2015),
ECF 73.
2

7a

prayer halls)3; id. at 26, ¶ 66 (leaving audio recording
device in mosque offices); id. at 26, ¶ 65 (leaving audio
recording devices in restaurants and cafes); and
second, Monteilh’s video recording of certain sensitive
locations, including the interiors of mosques and
houses. See id. at 8, ¶ 11; id. at 13, ¶ 23; id. at 37, ¶¶
7–8 (the internal layout of mosques and homes); id. at
15–16, ¶ 33; id. at 37, ¶ 5 (speeches and sermons at
mosques and fundraising events); id. at 15, ¶ 32; id. at
39, ¶ 16 (mosque fundraising booths and events).4
Because claims arising from these categories of
evidence are no longer subject to any pleading
challenge or dismissal based on the Government’s
state secrets assertion, discovery on them should
proceed.
a.

The Government’s Objections

The Government objects to proceeding on the
search claims because other information at issue—
concerning “planted devices” that Monteilh learned
about through Defendants Allen and Armstrong, see
Fazaga, 965 F.3d at 1038—could implicate their state
secrets assertion. See infra at 25. But even if this is
true, Plaintiffs have stated they will not proceed as to
In support of their Oppositions to the various Defendants’
Motions to Dismiss, Plaintiffs filed four declarations of Craig
Monteilh, one supporting Plaintiffs’ general allegations in the
Complaint, and three detailing the Government’s targeting of
each named Plaintiff. See Dkt. 66. As these declarations were
joined together in one filing, Plaintiffs refer to them here by their
ECF page number and the relevant paragraph number contained
therein.
3

The Ninth Circuit dismissed claims against the Individual
Defendants as to recordings inside mosques, but allowed all of
them to proceed against the Government. Fazaga, 965 F.3d at
1053-55.
4

8a

any portion of their claims that implicates information
covered by the Government’s privilege assertion
before Supreme Court certiorari litigation is resolved.
As both sides agree that some portions of the search
claim are not governed by the existing state secrets
assertion, there is no reason to stay discovery and
subsequent litigation on those portions.5
The Government raises an independent
argument against allowing Plaintiffs to proceed with
discovery, asserting that no discovery should occur
until “plaintiffs can establish as a factual matter, with
non-privileged evidence, their standing as ‘aggrieved’
persons, . . .” But Plaintiffs’ proposal renders this
added procedural hurdle irrelevant. While the
Government decides whether to seek certiorari review
of the Ninth Circuit’s decision, Plaintiffs propose
litigating only those claims that can proceed without
evidence the Government sought to withhold as state
secrets - a process that need not utilize FISA
The Government appears to assert that the information
pertaining to the “planted devices” aspect of the search claims is
covered by its existing state secrets assertion, a claim it has not
made previously. It argues this claim is not new, claiming that
this “category of alleged electronic surveillance that is at the very
heart of the [Ninth Circuit’s] FISA displacement theory.” See
infra at 25. This dispute is irrelevant at this juncture because
Plaintiffs have stated they do not intend to litigate over any
information that comes within the Government’s existing
privilege assertion. But in any event, the Government is
incorrect. The Ninth Circuit concluded, in keeping with the D.C.
Circuit’s view, that FISA procedures should be applied as to any
privileged information arising in Plaintiffs’ challenges to the
legality of electronic surveillance. Fazaga, 965 F.3d at 1052 (“We
are not the first to hold that § 1806(f)’s procedures may be used
to adjudicate claims beyond those arising under § 1810. The D.C.
Circuit expressly so held in ACLU Foundation of Southern
California v. Barr, 952 F.2d 457 (D.C. Cir. 1991)”).
5

9a

procedures at all. As explained above, the Government
previously represented that it “expects that the
majority of the audio and video” Monteilh collected for
the FBI “will be available in connection with further
proceedings” in this case. Fazaga, 965 F.3d at 1043.
There is no need to use FISA’s ex parte procedures to
begin discovery as to those recordings. Therefore, no
predicate showing of “aggrieved person” status is
required.
Although the Court need not address it now
given Plaintiffs’ stipulation to limit discovery to nonprivileged information, the Government errs in
arguing Plaintiffs must do more to establish their
“aggrieved
status”
under
FISA.
Monteilh’s
declarations constitute admissible evidence on that
point, and the Ninth Circuit’s decision holds that his
surveillance gives rise to the search claims that this
Court should resolve using FISA’s procedures if
necessary. Fazaga, 965 F.3d at 1053 (“Plaintiffs are
properly considered aggrieved persons as to those
categories of surveillance”); id. at 1065 (“the district
court should, using § 1806(f)’s ex parte and in camera
procedures, review any materials relating to the
surveillance as may be necessary . . . to determine
whether the electronic surveillance was lawfully
authorized and conducted”). Thus, Plaintiffs have
made any separate standing showing FISA requires to
trigger the procedures under Section 1806(f).
Monteilh’s declarations offer the “specifics based on
non-classified evidence to establish [Plaintiffs’]
‘aggrieved person’ status under FISA.” In re Nat’l Sec.
Agency Telecommunications Records Litig., 564 F.
Supp. 2d 1109, 1135 (N.D. Cal. 2008). This case is
therefore different from those on which the
Government relies, as none of the plaintiffs in them
10a

had admissible evidence that they had actually been
surveilled. Compare Jewel v. NSA, Civ. 08-4373 (N.D.
Cal. April 25, 2019) (Dkt. 462) (Plaintiffs had no nonprivileged evidence that they had been surveilled);
Wikimedia v. Nat’l Sec. Agency, 427 F. Supp. 3d 582
(D. Md. 2019) (same); Clapper v. Amnesty Int’l USA,
568 U.S. 398, 412 n.4 (2013) (same, in non-FISA case).
The Government also raises the possibility it
could invoke a new state secrets claim addressing
some of the evidence arising from Monteilh’s
recordings. See infra at 26. This hypothetical cannot
justify staying litigation over information that no one
has argued is covered by the privilege. On the
contrary, if the Government actually intends to assert
the privilege more broadly than it has before, it would
be far better for all sides to know that now, as that
assertion would be highly pertinent to any Supreme
Court litigation as well as future proceedings in this
Court.
b.

Individual Defendants’
Objections

Defendants Tidwell, Walls, and Rose raise a
separate argument against Plaintiffs’ request to
proceed. They claim that any discovery propounded on
the Government while they litigate their pleading
challenges impermissibly burdens them, even if they
are “not yet themselves subject to discovery orders.”
See infra at 40 (citing Ashcroft v. Iqbal, 556 U.S. 662,
685–86 (2009)). They therefore request all
proceedings be halted—including those solely between
Plaintiffs and the Government—until they exhaust
their pleading challenges. The Court should reject this
argument for three reasons.

11a

First, Iqbal concerned the protection of two very
high-ranking defendants from the burdens of
litigation, then-Director of the FBI Robert Mueller,
and former Attorney General John Ashcroft. Iqbal,
556 U.S. at 666. The “burdens of discovery” that
Mueller and Ashcroft faced were unique to their
status as “highlevel officials who must be neither
deterred nor detracted from the vigorous performance
of their duties,” id. at 686, a concern wholly absent
where, as here, the defendants are comparatively lowranking officials whom Plaintiffs allege personally
participated in the challenged conduct. Unlike
Mueller and Ashcroft Tidwell, Walls, and Rose cannot
explain why they would be burdened by Plaintiffs
propounded discovery upon the Government over
matters already in the public record and for which the
Government has not asserted the state secrets
privilege.
Second, Iqbal does not apply for an entirely
different reason: because any burden the Individual
Defendants will bear due to discovery targeting the
Government will continue to exist whether or not they
win their motion to dismiss. The Government itself
was not a defendant in Iqbal. Success on their motion
to dismiss rendered Attorney General Ashcroft and
FBI Director Mueller entirely free from the litigation,
as they faced only “conclusory” and “implausible”
allegations of misconduct. Iqbal, 556 U.S. at 681–82.
Here, in contrast, Tidwell, Walls, and Rose are
percipient witnesses to at least some of the conduct at
issue in the claims against the Government, and can
expect to be deposed or subpoenaed on any of
Plaintiffs’ surviving claims—as third parties if not as
defendants. Thus, halting discovery pending the
Bivens motions will merely postpone their personal
12a

involvement, it cannot stop it. Nothing in Iqbal
suggests that rationale would suffice to disturb the
ordinary presumption against staying discovery while
a pending Rule 12 motion is decided. Skellerup Indus.
Ltd. v. City of Los Angeles, 163 F.R.D. 598, 600–01
(C.D. Cal. 1995) (“Had the Federal Rules
contemplated that a motion to dismiss under Fed. R.
Civ. P. 12(b)(6) would stay discovery, the Rules would
contain a provision for that effect. In fact, such a
notion is directly at odds with the need for expeditious
resolution of litigation”).
Third, even if this objection might have merit
as to some discovery requests, it surely does not as to
much of the discovery Plaintiffs contemplate, which
will not burden these Defendants in any way. Agents
Tidwell, Walls, and Rose were not party to the
conversations Monteilh surreptitiously recorded in
mosques and elsewhere, and were not present when
he videotaped without others’ knowledge. They
presumably would not be personally involved in
reviewing recordings for discovery production in this
case. While the same may not be true for other
discovery requests (including of course these
Defendants’ depositions), Plaintiffs can defer any such
burdensome requests until after the pleading
litigation has concluded. Should Defendants believe
any given request too burdensome before that time,
they could of course seek this Court’s intervention.
Plaintiffs therefore respectfully request the
Court permit the Parties to initiate motion practice
and discovery on the search claims as described above.
2.

Religion Claims

Plaintiffs also request the Court restart
proceedings on the surviving religious discrimination
13a

claims for two limited purposes. First, as to those
claims brought against the Agent Defendants under
Bivens (the First, Third, and Sixth Causes of Action as
against the Agent Defendants), this Court should
consider the Individual Defendants’ motion to dismiss
under Ziglar v. Abbasi, 137 S.Ct. 1843 (2017) and
perhaps other grounds.6
Second, as to the surviving religious
discrimination claims against the Government (the
First, Third, Fifth, Sixth and portions of the Eleventh
Causes of Action as against the Government), while
Plaintiffs would not seek discovery during the
pendency of any potential Supreme Court litigation,
Plaintiffs nonetheless request the Court permit them
to move for summary judgment. Plaintiffs maintain
they can litigate these claims without the use of any
evidence designated as a state secret, and therefore
that any assertion of the privilege is premature until
Plaintiffs have been permitted to move for summary
judgment. See Br. of Pls.-Appellants, at 25–26, Fed.
Bureau of Investigation, No. 13-55017 (9th Cir. Nov.
17, 2014), ECF 32-2.7 During the meet and confer
process, the Government reiterated its position that
even if Plaintiffs can file a summary judgment motion,
“responding to the motion for summary judgment”
would require invocation of the privilege because “all
the responsive evidence” Defendants would offer is
subject to the privilege assertion. See also
The Individual Defendants have indicated their intention to
move to dismiss on grounds beyond Abbasi. To the extent such
claims are preserved, Plaintiffs agree that the Court should
consider them at this juncture.
6

The Ninth Circuit did not consider this argument because it
adopted Plaintiffs’ alternative argument that FISA displaces the
privilege. Fazaga, 965 F.3d at 1039.
7

14a

Superseding Br. of Federal Appellees, at 18, 23, Fed.
Bureau of Investigation, No. 13-55017 (9th Cir. June
25, 2015), ECF 73 (endorsing this Court’s conclusion
that Defendants needed to use the privileged
information
“to
defend”
against
religious
discrimination claims). As Plaintiffs argued
previously, Defendants’ prediction may prove correct,
but one cannot know “with certainty,” Jeppesen, 614
F.3d at 1081, until Plaintiffs file their summary
judgment motion on the religion claims. If Defendants
then invoke the privilege, further litigation could
cease pending the Supreme Court certiorari process.
The Government suggests that Plaintiffs’
position concerning the use of FISA procedures—that
it should govern all information over which
Defendants have asserted the state secrets privilege,
including that not otherwise covered by FISA—
somehow conflicts with Plaintiffs’ request to move for
summary judgment on the religion claims, but this is
wrong. Plaintiffs’ position throughout has been that
they need not rely on any privileged information to
prevail on their religious discrimination claims. Mr.
Monteilh’s declarations establish crystal-clear
violations of the Constitution’s prohibition on
religious discrimination. See, e.g., Dkt. 66 at 10, ¶ 17
(Allen and Armstrong “did not give me any specific
targets, but instead told me to gather as much
information on as many people in the Muslim
community as possible”), id. at 20, ¶ 46 (they told him
to focus on Muslims who appeared more devout
because they were more suspicious).
If Defendants choose to respond using
information over which they simultaneously assert
the state secrets privilege, only then would FISA come
into play. Thus, any request for a stay out of concern
15a

for the use of FISA would be premature until
Defendants have responded to the summary judgment
motion.8
3.

FTCA Claims

As to Plaintiffs’ Federal Tort Claims Act
(“FTCA”) claims, Plaintiffs agree that the Government
may seek to dismiss the various FTCA claims on
grounds other than the discretionary function
exception while certiorari proceedings are pending
before the Supreme Court. Although the application of
the discretionary function exception turns on the
merits of Plaintiffs’ other claims against the
Government, Fazaga, 965 F.3d at 1065, the Ninth
Circuit did not have occasion to entertain other
grounds for dismissal raised by the Government in its
original motion to dismiss. If certiorari proceedings
remain on-going after that litigation concludes,
Plaintiffs request the Court allow discovery on the
same terms described above – i.e., permit it where
relevant to the FTCA claim and not covered by any
state secrets privilege.
C.

The Government’s Requested Stay

Plaintiffs will respond to the Government’s
request for a stay in due course. At this stage, only a
The Government suggests an alternative approach where
Plaintiffs could file their summary judgment motion but the
Court would then stay further proceedings, before the
Government has responded. See infra at 29. But this would not
give the Court “certainty” that the Government’s response would
require disclosure of privileged information, as Jeppesen
requires. The only way to obtain that certainty is for the
Government to review the evidence it would actually need to
respond to Plaintiffs’ motion, and then to invoke the privilege if
it deems it necessary.
8

16a

few points bear mention. First, Plaintiffs agree that no
litigation should go forward if it requires the
disclosure of information over which the Government
has asserted state secrets privilege, even through
FISA. Thus, no one advocates proceeding “under a
statutory framework that should not [in the
government’s view] apply.” See infra at 21.
Second, the Government has not disputed that
its requested stay would, if granted, stop litigation
over information as to which the Government has not
asserted the privilege. As to that information, the only
issue is whether it will be litigated now, or instead
after months or years of further delay. The stay at
issue will at a minimum run through December 17,
2020, and (if the Government seeks certiorari) could
easily run into the spring of 2021.
Finally, the Government inappropriately
minimizes the harm that Plaintiffs suffer by knowing
that it continues to maintain vast amounts of
information about their entirely lawful activities and
associations. If that information was obtained in
violation of the Fourth Amendment, its maintenance
"impair[s] fundamental rights" and constitutes
"irreparable injury." Fazaga, 965 F.3d atl055. This
Court should not countenance unnecessary delay
when it could instead, finally, give Plaintiffs their day
in court on at least some of the harm Monteilh caused
at Defendants' behest.
D.

Plaintiffs' proposed timeline

Consistent with the request above, Plaintiffs
propose the following schedule for reinstituting
proceedings in this Court:

17a

Deadline

Date

Last date to hear
Government motion to stay
proceedings pending writ
proceedings.

September 25, 2020

Last date for the parties to
conduct Rule 26(f)
conference on all claims.

September 25, 2020

Last date to hear Agent
Defendants’ motion to
dismiss surviving Bivens
claims.9

November 13, 2020

Non-expert discovery cutoff.

August 27, 202110

Expert discovery cut-off.

September 24, 2021

Deadline for filing
dispositive motions.

October 11, 2021

Pre-trial conference.

November 22, 2021

Trial (Plaintiffs estimate a
10-day trial).

December 6, 2021

Plaintiffs may move to amend the complaint after the Court’s
disposition of these motions.
9

This and all subsequent dates are subject to change pending
the Supreme Court’s disposition of any petition for writ of
certiorari.
10

18a

II.

GOVERNMENT DEFENDANTS’
STATEMENTS
A.

Government Defendants Sued in
their Official Capacity

Plaintiffs have raised claims against the
Federal Bureau of Investigation and the Director of
the FBI, Christopher Wray, sued solely in his official
capacity, and John F. Bennett, Acting Assistant
Director in Charge, FBI Los Angeles Field office, sued
solely in his official capacity. Plaintiffs also seek
damages against the United States pursuant to the
Federal Tort Claims Act. As set forth further below,
the Government proposes the following next steps for
further proceedings in this case.
First, the Court should stay further
proceedings in this case pending: (1) a decision by the
United States on whether to petition the Supreme
Court for a writ of certiorari; (2) a decision by the
Supreme Court on the writ of certiorari, if a petition is
filed; and (3) resolution of proceedings in the Supreme
Court, if a writ of certiorari is granted. The
Government’s request for a stay does not extend to
briefing in connection with the individual capacity
defendants’ renewed motions to dismiss Bivens claims
against them, including in light of the Supreme
Court’s intervening decision in Ziglar v. Abbasi, 137
S. Ct. 1843 (2017), or on other grounds those
defendants may raise.
Plaintiffs oppose a stay of any length – not even
to determine if the Government will seek certiorari,
which would be known by no later than December 17,
if not earlier, or until the Supreme Court decides
whether to grant any petition for certiorari, which
plaintiffs recognize could occur by early 2021. They
19a

profess they would not seek to pursue matters that
implicate whether the state secrets privilege has been
displaced by FISA procedures, but propose to proceed
on what they assert are “significant portions” of the
case that could steer clear of state secrets issues.
While the Government appreciates plaintiffs’
apparent concession that state secrets issues should
be avoided until any further review is resolved,
significant portions of this case are still impacted by
state-secrets privilege and FISA-displacement issues,
and plaintiffs’ proposal for piecemeal adjudication of
purportedly non-privileged matters still would put the
state secrets privilege at issue. As an initial matter, if
certiorari were sought and granted, and this Court’s
2012 decision upholding the state secrets privilege
was affirmed, that would at least provide important
guidance on how any remaining claims should
proceed. While awaiting the possibility of Supreme
Court review would entail further delay, this remains
an avenue properly available to the Government. At
the very least, the Court should wait until a decision
is reached on seeking certiorari – and, if so, whether
certiorari is granted – which will be only a matter of
months. In the meantime the parties could proceed to
fill that time with motions to dismiss the remaining
Bivens claims.
If certiorari is not sought by the Government or
if any petition for certiorari is not granted by the
Supreme Court, the Government believes that further
steps in this Court should proceed incrementally,
starting with (i) motions practice concerning whether
Plaintiffs’ Bivens claims against the individual
capacity defendants may proceed and thereafter (ii)
motions practice concerning whether Plaintiffs can
establish as a factual matter, with non-privileged
20a

evidence, their standing as “aggrieved” persons for
purposes of any Section 1806(f) proceedings. This
issue should be resolved before any proceedings under
Section 1806(f). If the FISA displacement issue were
to drop out of the case, then further proceedings on the
search and religion claims would be resolved in
accordance with the state secrets privilege.
Accordingly, while some aspects of the Fourth
Amendment and FISA search claims implicate nonprivileged evidence of the audio or video allegedly
collected by the informant, piecemeal litigation of this
limited aspect of the search claims would still risk or
require the disclosure of privileged information and
should not proceed until after the question of seeking
certiorari on FISA displacement of the state secrets
privilege is resolved. The Government’s positions are
described in more detail below.
1.

Stay of Proceedings

The Government is preparing a separate
motion to stay proceedings. For the Court’s
convenience, the pertinent arguments in support of a
stay are summarized herein.
As this Court has previously recognized, a court
may stay proceedings as part of its inherent power “‘to
control the disposition of the causes on its docket with
economy of time and effort for itself, for counsel, and
for litigants.’” Billon, Inc. v Slatin, No. SACV 1600788-CJC, 2017 WL 2719980 (C.D. Cal. Jan. 26,
2017) (quoting Landis v. N. Am. Co., 299 U.S. 248, 254
(1936)); see also Clinton v. Jones, 520 U.S. 681, 706
(1997) (“The District Court has broad discretion to
stay proceedings as an incident to its power to control
its own docket.”) (citing Landis). This inherent power
includes the authority to order a stay “‘pending
21a

resolution of independent proceedings which bear
upon the case.’” Billon, 2017 WL 2719980, at *1
(quoting Leyva v. Certified Grocers of Cal., Ltd., 593
F.2d 857, 863 (9th Cir. 1979)). Where a stay is
considered pending the resolution of another action,
“the court need not find that two cases possess
identical issues; a finding that the issues are
substantially similar is sufficient to support a stay.”
Id. (citing Landis, 299 U.S. at 254).
In determining whether to stay a case, “the
competing interests which will be affected . . . must be
weighed.” Lockyer v. Mirant Corp., 398 F.3d 1098,
1110 (9th Cir. 2005) (citing CMAX, Inc. v. Hall, 300
F.2d 265, 268 (9th Cir. 1962)). These interests include:
“(1) the possible damage which may result from the
granting of a stay, (2) the hardship or inequity which
a party may suffer in being required to go forward, and
(3) the orderly course of justice measured in terms of
the simplifying or complicating of issues, proof, and
questions of law which could be expected to result
from a stay.” Id.; see also Chen v. St. Jude Med., LLC,
No. SACV 17-00143-CJC, 2017 WL 8220441 (C.D. Cal.
June 5, 2017); Freeman Expositions, Inc. v. Global
Experience Specialists, Inc., No. SACV 17-00364-CJC,
2017 WL 6940557 (C.D. Cal. June 27, 2017); Grivas v.
Metagenics, Inc., No. SACV 15-01838-CJC, 2016 WL
11266835 (C.D. Cal. Mar. 31, 2016).
Courts routinely stay proceedings pending
resolution of related cases in an appellate court,
including pending a decision by the Supreme Court.
See, e.g., Sensibaugh v. EF Education First, Inc., No.
CV 20-1068-MWF, 2020 WL 3455641 (C.D. Cal. May
7, 2020) (granting stay of proceedings pending
resolution of an issue before the Supreme Court);
Rossano v. Fashion Mktg. & Merch. Grp. Inc., No. CV
22a

19-10523-MWF, 2020 WL 4288059 (C.D. Cal. May 4,
2020) (granting stay of proceedings pending ruling by
Supreme Court in a case raising a related issue). The
grant of a stay pending a decision by the Supreme
Court on a petition for a writ of certiorari is also
appropriate. Walker v. Monsanto Co. Pension Plan,
472 F. Supp. 2d 1053, 1054-55 (S.D. Ill. 2006) (staying
certain counts pending a writ of certiorari to the
Supreme Court in another case concerning claims
“substantially identical” to the claims before the
district court, and observing that “[s]uch stays are
entered quite routinely”).
The Government seeks a stay of proceedings in
this action for the straightforward reason that it is
presently considering whether to seek review of the
Ninth Circuit panel decision in the Supreme Court.
This avenue of further review remains available to the
Government and could result in this Court’s prior
decision on the state secrets privilege being affirmed,
or some other outcome that would significantly impact
further proceedings in this Court. Accordingly, the
Government seeks an opportunity to complete
deliberations on whether to seek certiorari before
further relevant proceedings commence, and a further
stay of proceedings if certiorari is sought and then if
granted by the Supreme Court.
The balance of interests supports a stay of
proceedings in these circumstances. On the one hand,
it is not apparent what damage may result to
plaintiffs from the granting of a stay. This case
admittedly has been pending for a long time, but the
challenged investigative activities occurred well over
a decade ago, and Plaintiffs seek only retrospective
relief in the form of the expungement of records or
damages. Also, any harm caused by the delay in this
23a

case resulted from the nearly eight years in which this
case was pending on appeal. By comparison, the time
it would take for the Government to decide on whether
to seek certiorari, and for the Supreme Court to rule
on that petition, would be a matter of months at the
longest. See Leyva, 593 F.2d at 864 (recognizing that
a stay is appropriate where it “appears likely the other
proceedings will be concluded within a reasonable
time in relation to the urgency of the claims presented
to the court”).
On the other hand, further proceedings in
accord with the Ninth Circuit panel decision would
risk significant harm to the Government’s interests.
At issue in this case is how litigation that implicates
the disclosure of national security information should
proceed. The Government contends that the Ninth
Circuit panel has imposed a process that does not
apply as a matter of law to review of information
subject to the state secrets privilege in this case, or to
resolution of the claims on that basis. Proceeding,
before any further review, under a statutory
framework that should not apply would not only
perpetuate that error of law but could itself risk the
disclosure of the very information that the state
secrets privilege seeks to protect in this case. Notably,
the privilege was asserted here to protect information
that has not previously been disclosed, including the
subjects of Operation Flex, the reasons for the
investigations, and the sources and methods that were
used, including alleged electronic surveillance. As the
Supreme Court has pointed out, where the very
question of whether the Government has undertaken
investigative actions involving particular persons is
protected, attempting to address the merits of any
claims would inherently risk or require disclosure of
24a

that very evidence. Clapper v. Amnesty Int’l, USA, 568
U.S. 398, 412 n.4 (2013) (condemning in camera
proceedings that would reveal subjects of Government
surveillance as contrary to national security
interests). While Plaintiffs assert that they seek to
avoid issues that implicate the state secrets privilege
and FISA displacement issues, in fact their proposal
for proceeding would still put directly at issue
information subject to the state secrets privilege. See
infra (section titled “Plaintiffs’ Proposal for
Proceeding”).
The remaining factors also weigh in favor of
staying the proceedings here. Certainly, “the orderly
course of justice” supports a stay, as any Supreme
Court review would address questions of law that
have a direct bearing on further proceedings,
particularly if the Supreme Court agrees with this
Court’s prior decision. And even if the Supreme Court
were to affirm the Ninth Circuit, it would very likely
clarify the remaining issues of law and proof in this
litigation. For these reasons, the “economy of time and
effort for [the Court], for counsel, and for litigants,”
Landis, 694 F.3d at 1054, also counsels in favor of a
stay.
Finally, there is little concern that a stay would
be “indefinite in nature.” Dependable Highway
Express, Inc. v. Navigators Ins. Co., 498 F.3d 1059,
1066 (9th Cir. 2007). Supreme Court Rule 13, as
modified by the Supreme Court’s Miscellaneous Order
of March 19, 2020, prescribes a finite time in which a
party may seek review. If the Government petitions
for certiorari, it will do so no later than that date, if
not before. If a petition is filed and certiorari is
granted, there is also a prescribed time in which the
parties may brief the merits, and the Supreme Court
25a

would presumably resolve the matter in regular order.
While Plaintiffs assert that, if certiorari is sought and
granted, the Supreme Court may not decide the
matter until the 2021-22 term, that is both speculative
and, in any event, not a justification for proceeding
now. Plaintiffs chose to appeal this Court’s prior
decision. And further review by the Supreme Court
remains an available avenue that, if sought and
granted, could result in rejection of the FISA
displacement theory, affirmance of this Court’s
decision upholding the state secrets privilege, and the
issuance of binding guidance that would impact
litigation of the remaining claims. At the very least,
waiting for an initial decision on whether certiorari is
sought and granted would cause little prejudice,
particularly where there are Bivens matters that
could be litigated in the meantime.
2.

Government Defendants’ Response to
Plaintiffs’ Proposal for Proceeding

Plaintiffs appear to acknowledge that further
proceedings that implicate the state secrets privilege
and FISA displacement theories would not be
appropriate while the question of certiorari is
pending. They propose to proceed while a decision on
certiorari is pending on two fronts that they assert will
not implicate the state secrets/FISA displacement
issues. First, with respect to “search” claims arising
under the Fourth Amendment and the FISA Section
1810, Plaintiffs seek to proceed on limited aspect of
those claims, pertaining to the alleged collection of
audio and visual recordings of conversations to which
the informant (Mr. Monteilh) was not a party, and
they contend that this would not be affected by any
petition for certiorari concerning the state
secrets/FISA displacement issues because the
26a

Government Defendants did not assert the Reynolds
state secrets privilege as to the search claims. As set
forth below, the Government disagrees with that
assessment. Second, plaintiffs propose to file for
summary judgment on their religious discrimination
claims, apparently based on declarations previously
submitted by Mr. Monteilh concerning his activities.
But there is no credible argument that such summary
judgment proceedings on the religion claims would not
implicate the state secrets privilege and FISA
displacement issues that would be at issue in any cert
petition.
Search Claims: With respect to the search
claims, Plaintiffs seek to litigate in piecemeal fashion
one aspect of the claims that puts at issue one category
of evidence. By way of background, there are several
distinct categories of alleged conduct at issue in these
search claims, including: (1) the collection of audio or
video by Monteilh while he was consensually in the
presence of others; (2) the alleged non-consensual
collection of (a) audio or (b) video by Monteilh, either
by leaving devices unattended or otherwise collecting
video in locations without consent; and (3) the alleged
planting of audio listening devices by the FBI in the
office of one Plaintiff (Fazaga) and in the home of
another (AbdelRahim), and in several other mosques
in Southern California. Fazaga, 965 F.3d at 1027,
1032-33 (describing the categories of alleged
surveillance). The third category of alleged
surveillance, referred to by the Ninth Circuit panel as
recordings made by “planted devices,” did not involve
Mr. Monteilh; rather, he alleges that he was told by
the individual capacity defendants, FBI Agents Allen
and Armstrong, that this collection occurred. Id. at
1038, 1043. The plaintiffs claim that all three
27a

categories of alleged surveillance were undertaken in
violation of the FISA and Fourth Amendment.
In proposing to proceed, plaintiffs focus solely
on the second category – the alleged non-consensual
collection of audio and video by Monteilh – and argue
that this is among the information as to which the
Government’s privilege assertion did not apply. As the
Government has explained, the FBI had previously
disclosed in a separate criminal proceeding that the
informant at issue in this case (Mr. Monteilh) collected
audio and video information for the FBI, and that it
was reviewing that material for possible use in
connection with further proceedings. See Public
Declaration of Mark. F. Giuliano (“Pub. Giuliano
Decl.”) ¶ 12 (Dkt. 33). But the fact that some evidence
relevant to one aspect of the search claims is not
privileged does not mean that litigation of the search
claims will not implicate the state secrets privilege
and the Ninth Circuit’s FISA displacement theory.
In the first place, plaintiffs err in suggesting the
Government did not assert the Reynolds privilege over
the search claims at all. Rather, the Government did
not initially seek dismissal of the search claims on
state secrets grounds. But the Government was
careful to note that “it remains possible that the need
to protect properly privileged national security
information might still foreclose litigation of these
claims.” See Government’s Motion to Dismiss or for
Summary Judgment at 4 (Dkt. 32). In short, given the
potential availability of some non-privileged evidence
as to the informant’s collection of audio, the
Government proposed to put off the issue of how the
state secrets privilege would impact the litigation of
the search claims. One aspect of the search claim that
plaintiffs concede would implicate the state secrets
28a

privilege and FISA displacement theory is the third
category – the alleged planting of devices in the home
and office of two plaintiffs. Plaintiffs now propose to
take that issue off the table for further proceedings in
seeking to avoid any issue raised on certiorari. But
that still would not justify proceeding on one small
aspect of the search claims, as Plaintiffs propose.
First, if certiorari were sought and granted, and
the FISA displacement theory was rejected and this
Court’s 2012 decision upholding the state secrets
privilege was affirmed, that would at least provide
important guidance on how any remaining claims
should proceed. For example, such a ruling could
underscore that FISA Section 1806(f) proceedings
would not apply, and that further litigation of the
remaining claims may not risk the disclosure of state
secrets. In any event, the playing field for further
proceedings could substantially change from that
presented by the panel’s decision.
Second, even under Plaintiffs’ proposal, the
Fourth Amendment and FISA search claims could not
be litigated to conclusion. That is, if just one aspect of
the claims concerning one category of evidence
(Monteilh’s alleged non-consensual recordings)
proceeds, the remaining portion of the claims
pertaining to alleged unlawful electronic surveillance
through planted devices (category 3) still plainly
implicate the state secrets privilege and FISA
displacement and would remain. This aspect of the
search claims is at the very heart of plaintiffs’ theory
that FISA displaces the state secrets privilege; indeed,
absent as assertion of privilege over alleged electronic
surveillance there could be no FISA displacement

29a

theory.11 Accordingly, complete resolution of the
claims would still have to await any Supreme Court
review.
Third, even if the search claims proceeded
solely with respect to the audio/video allegedly
collected by Monteilh without consent, the
Government has not taken the position that the state
secrets privilege would have no impact on this aspect
of the claim; as noted, in 2012, the Government
specifically noted that possibility. In fact, it is quite
foreseeable that information subject to the state
secrets privilege, including the scope of Operation
Flex, its subjects, the reasons for any investigations,
and its sources and methods, could be at risk of
disclosure even if this one aspect of the claim were to
proceed. For example, at the least, inquiry into the
background of Monteilh’s actions could put at issue
the basis for, or underlying facts related to,
Operation Flex. Indeed, plaintiffs have consistently
argued that the good faith basis for the investigation
would be at issue in litigating any claim. Moreover,
this Court has recognized that “‘even if the claims
In a footnote, plaintiffs appear to suggest that FISA Section
1806(f) procedures would govern the search claims regardless of
whether the Government had asserted the state secrets privilege
over alleged electronic surveillance. But that makes no sense,
and is clearly not what the Ninth Circuit panel or the D.C.
Circuit have held. The panel held simply that FISA Section
1806(f) displaced the state secrets privilege asserted in this case
beyond the Section 1810 claim. And the D.C. Circuit has made
quite clear that plaintiffs who merely alleged they were subject
to surveillance under the FISA were not entitled to use FISA
procedures to discover whether they were in fact subject to
surveillance. ACLU Found. of S. Cal., 952 F.2d at 462. This basic
disagreement as to how Section 1806(f) works thus counsels in
favor of a stay pending any Supreme Court review.
11

30a

and defenses might theoretically be established
without relying on privileged evidence, it may be
impossible to proceed with the litigation because—
privileged evidence being inseparable from
nonprivileged information that will be necessary to
the claims or defenses—litigating the case to a
judgment on the merits would present an
unacceptable risk of disclosing state secrets.’”
Fazaga, 884 F. Supp. 2d at 1045 (quoting Mohamed
v. Jeppesen Dataplan, Inc., 614 F.3d 1070, 1081 (9th
Cir. 2010)). Thus, the fact that some aspect of the
search claim implicates some nonprivileged evidence
does not compel the conclusion that no state secrets
issues would arise if this aspect of the claim were
litigated in piecemeal fashion.
Moreover, there is an important difference
between circumstances in 2012 and today: whether
the search claims could proceed in 2012 based solely
on nonprivileged evidence was unresolved at the time,
but the Government’s motion to dismiss argued that
the privileged evidence should be off the table for any
such litigation. That is, if any aspect of the search
claims were to proceed on nonprivileged evidence, the
privilege assertion still would have been applicable to
further proceedings, and information bearing on the
subjects, predicates, and sources and methods of the
investigation would remain excluded. But the Ninth
Circuit panel decision has thrown that into
uncertainty, having held the privilege assertion is
displaced in favor of FISA procedures. For this reason,
if Plaintiffs were allowed to proceed on one
purportedly non-privileged aspect of their search
claims, and issues were to arise concerning the
protection of information under the prior state secrets
privilege, as the Government believes is likely, the
31a

Ninth Circuit’s FISA displacement theory would
remain in play even as to the narrow aspect of the
claim on which plaintiffs seek to proceed. Thus, aside
from the inherently piecemeal nature of plaintiffs’
proposal for proceeding on the search claims, the
parties and Court have no clarity as to how future
issues of privilege would be resolved in litigation over
that claim.
Religion Claims: Plaintiffs’ proposal for
proceeding on their religion discrimination claims,
without waiting for resolution of any petition for
certiorari, underscores that the state secrets privilege
and FISA displacement theory would remain at issue.
Plaintiffs again assert that they have adequate nonprivileged evidence, in the form of declarations from
Monteilh, to present their summary judgment motion
on religious discrimination claims. They further
assert that the Government could respond if necessary
with a state secrets assertion, and only then would the
question of FISA displacement come into play. But
this suggested approach essentially seeks to replicate
proceedings that have led to where the case is today.
Even if plaintiffs believe they could make a prima
facie case on summary judgment with non-privileged
evidence, the evidence needed to respond to the
religious discrimination is at the heart of the state
secrets privilege assertion the Government already
asserted in 2012, as this Court recognized.12 And in
See Fazaga, 884 F. Supp. 2d at 1047 (“[T]he Court is persuaded
that privileged information provides essential evidence for
Defendants’ full and effective defense against Plaintiffs’ claims—
namely, showing that Defendants’ purported “dragnet”
investigations were not indiscriminate schemes to target
Muslims, but were properly predicated and focused. Doing so
would require Defendants to summon privileged evidence related
to Operation Flex, including the subjects who may or may not
12

32a

reversing this Court, the Ninth Circuit panel decision
indicated that review of the religion claims, and the
non-FISA privileged evidence associated with them,
also would be subject to Section 1806(f) procedures.
Fazaga, 965 F.3d at 1066. Plaintiffs’ proposal to
proceed with summary judgment on the religion
claims now thus would be an exercise in déjà vu –
bringing the case back to where it was in 2012. Under
Plaintiffs’ proposed path forward, the state secrets
privilege assertion would squarely be at issue in any
summary judgment proceeding – that is apparent
now, and there is no point in waiting for the
Government to assert it again. Moreover, the Ninth
Circuit already has held that FISA procedures would
displace that privilege even as to non-FISA
information and the religion claim. In these
circumstances, it should be apparent that proceeding
now on remand with summary judgment on the
religion claims would squarely put at issue precisely
what could be at issue in any petition for certiorari –
whether the state secrets evidence at issue in
litigating those claims has been displaced by the FISA
procedures.
It is also worth noting that, even assuming the
FISA Section 1806(f) procedures did displace the state
secrets privilege in this case, Plaintiffs’ proposal of
moving for summary judgment on the religion claims
have been under investigation, the reasons and results of those
investigations, and their methods and sources. Additionally,
even if Plaintiffs can successfully show that Defendants’ actions
substantially burdened their exercise of religion with
nonprivileged information, defense against Plaintiffs’ First
Amendment claims entails analysis of whether the Government
had a “compelling state interest” and its actions were “narrowly
tailored” to achieve that interest.).

33a

is in tension with the panel decision as to how those
claims would play out. The panel noted that, under the
FISA procedures, “Plaintiffs’ religion claims will not
go forward under the open and transparent processes
to which litigants are normally entitled.” 965 F.3d at
1040. The panel added: “As it is Plaintiffs who have
invoked the FISA procedures, we proceed on the
understanding that they are willing to accept those
restrictions to the degree they are applicable as an
alternative to dismissal, and so may not later seek to
contest them.” Id. Even if this admonition could be
read to allow plaintiffs to seek summary judgment on
claims that they demanded be litigated ex parte under
FISA Section 1806(f), it should be apparent that any
further adjudication of such a motion would implicate
the state secrets privilege and the purported
applicability of FISA procedures to non-FISA
information and claims. Once again, whether FISA
displaces the state secrets privilege in this case would
be a central issue if certiorari is sought and granted.
One alternative approach would be for
Plaintiffs to file their motion for summary judgment,
and then for the Court to stay proceedings without
requiring a response. That approach would provide
additional information as to why adjudication of
Plaintiffs’ claims that Operation Flex was an
indiscriminate dragnet based solely on religion calls
for evidence subject to the privilege assertion,
including information as to who was being
investigated, for what reasons, and through what
sources and methods. In this way, Plaintiffs’ summary
judgment motion should help demonstrate why this
Court’s prior state secrets dismissal of these claims
was correct, but in the meantime further litigation of

34a

that motion should not proceed pending a decision on
certiorari.
3.

Government Defendants’ Position on
Further Proceedings.

The Government maintains its position that
proceedings should be stayed pending resolution of
any petition for certiorari. If certiorari is not sought
by the Government, or if any petition for certiorari is
not granted by the Supreme Court, the Government
believes that further steps in this Court should
proceed incrementally, starting with (i) motions
practice concerning whether the plaintiffs Bivens
claims against the individual capacity defendants
proceed; and thereafter (ii) motions practice
concerning whether the plaintiffs can establish as a
factual matter, with non-privileged evidence, their
standing as “aggrieved” persons, before any
proceedings under Section 1806(f) proceed and before
any discovery. If plaintiffs fail to establish their
aggrieved status, then the FISA displacement theory
would drop out of the case, and any litigation of the
remaining claims would proceed in accordance with
the exclusion of evidence based on the state secrets
privilege. This threshold question should be resolved
first before the case proceeds on remand, because it
will impact how all other claims are litigated.
Notwithstanding its theory that FISA displaces
the state secrets privilege in this case as to all
information subject to the privilege assertion and all
claims, including the religion claims, the panel’s
decision leaves open a door for the Government to
renew an assertion of the state secrets privilege
“should [the panel’s] prediction of the overlap between
the information to be reviewed under the FISA
35a

procedures to determine the validity of FISA-covered
electronic surveillance and the information pertinent
to other aspects of the religion claims prove
inaccurate, or should the FISA-covered electronic
surveillance drop out of consideration” (“if, for
instance, Plaintiffs are unable to substantiate their
factual allegations as to the occurrence of the
surveillance”). 965 F.3d at 1066-67 & n.51 (emphasis
added). In that case, “the Government is free to
interpose a specifically tailored, properly raised state
secrets privilege defense.” Id. at 1067.
FISA Section 1806(f) applies, by its terms, only
in certain circumstances to determine the “legality” of
electronic surveillance. It does not apply to determine
the predicate question whether alleged electronic
surveillance occurred. Compare 18 U.S.C. § 3504
(requiring the government to “affirm or deny”
surveillance). Section 1806(f) proceedings apply solely
to persons who first establish as a factual matter that
they are “aggrieved persons” within the meaning of
FISA. FISA defines “aggrieved” to mean a person who
is the target of or subject to electronic surveillance.
See 50 U.S.C. §1801(k). Citing allegations that
listening devices purportedly had been planted in the
office of Plaintiff Fazaga and home of Plaintiff
AbdelRahim, the panel concluded that “Plaintiffs are
properly considered aggrieved persons as to those
categories of surveillance.” Fazaga, 965 F.3d at 1053
(citing pages 1038–39 of the panel opinion). But that
observation rested on mere allegations of alleged
unlawful electronic surveillance. See id. at 1025–26
(emphasizing that “the truth or falsity of [Plaintiffs’]
allegations . . . is entirely unproven”); id. at 1038
(citing allegations of electronic surveillance through
the planting of devices in plaintiffs home and office,
36a

and other mosques in the area). Mere allegations are
not sufficient to proceed under Section 1806(f),
however. See Amnesty Int’l, 568 U.S. at 412 n.4
(rejecting an in camera proceeding to determine
standing to challenge alleged surveillance because
such a procedure “would allow a terrorist (or his
attorney) to determine whether he is currently under
U.S. surveillance simply by filing a lawsuit
challenging the Government’s surveillance program”);
ACLU Found. of S. Cal. v. Barr, 952 F.2d 457, 468-69
& n.13 (D.C. Cir. 1991) (“[I]f the government is forced
to admit or deny such allegations, in an answer to the
complaint or otherwise, it will have disclosed sensitive
information that may compromise critical foreign
intelligence activities.”). The very authority on which
the panel relied indicates that Plaintiffs must first
establish their aggrieved status as a factual matter
before Section 1806(f) proceedings can be triggered.
See In re Nat’l Sec. Agency Telecomms. Records Litig.,
564 F. Supp. 2d 1109, 1137 (N.D. Cal. 2008) (a litigant
must first establish himself as an “aggrieved person”
before seeking to make a “motion or request * * * to
discover or obtain applications or orders or other
materials relating to electronic surveillance . . . .); see
also Order Granting Defs.’ Mot. for Summ. J., Jewel v.
NSA, Civ. 08-4373 (N.D. Cal. April 25, 2019) (Dkt.
462), appeal docketed, No. 19-16066 (9th Cir. May 21,
2019).
Moreover, at least two courts have recognized
that the state secrets privilege may be interposed to
protect facts concerning whether a person is aggrieved
before Section 1806(f) proceedings are utilized to
determine the lawfulness of any such surveillance. See
Jewel v. NSA, Civ. 08-4373 (N.D. Cal. April 25, 2019)
(Dkt. 462); Wikimedia v. Nat’l Sec. Agency, 427 F.
37a

Supp. 3d 582 (D. Md. 2019). As noted, the
Government’s prior privilege assertion protected such
information. Unless plaintiffs can establish they are
aggrieved persons subjected to the alleged electronic
surveillance through non-privileged evidence, the
matter should not proceed under Section 1806(f). In
that circumstance, under the panel decision, the
question of FISA displacement would drop out, see
Fazaga, 965 F.3d at 1028 & n.5, and the case would
revert to application of the state secrets privilege as to
the remaining non-FISA information and claims.
In sum, to the extent Section 1806(f) may be
applicable (which the Government disputes), it cannot
be invoked based on mere allegations. Thus, the first
issue to be litigated on any remand – before any
attempt to litigate any claims utilizing the FISA
Section 1806(f) process – is whether Plaintiffs can
establish factually their “aggrieved” status without
privileged information. Mere allegations will no
longer suffice when this litigation moves beyond the
pleading stage. Amnesty Int’l, USA, 568 U.S. at 412
n.4 (rejecting suggestion that the Government could
help resolve the standing inquiry by disclosing to a
court through an in camera proceeding whether a
party is subject to surveillance, noting that it is a
plaintiffs’ burden to prove their standing by pointing
to specific facts, Lujan v. Defs. of Wildlife, 504 U.S.
555, 561 (1992), “not the Government’s burden to
disprove standing by revealing details of its
surveillance” and because such a process would
inherently risk disclosure of national security
information); see also ACLU Found. of S. Cal. 952 F.2d
at 469 (“the government would need only assert that
plaintiffs do not have sufficient evidence to carry their
burden of proving ongoing surveillance . . . .”).
38a

Plaintiffs’ first response to this approach is to
argue that the question of aggrieved status need not
be addressed because they do not seek to put the
state secrets privilege/FISA displacement at issue for
now. But, as explained, plaintiffs’ proposal for
proceeding on both the search and religion claims
would put the state secrets privilege and FISA
displacement theory at issue. Plaintiffs also contend
that the Ninth Circuit has already found they are
aggrieved for purposes of Section 1806(f), and that
Monteilh’s declarations would constitute admissible
evidence on that point. Both contentions are wrong.
As explained, the Ninth Circuit was addressing
solely plaintiffs’ allegations of being subject to
unlawful electronic surveillance, and specifically left
open the possibility that plaintiffs may be “unable to
substantiate their factual allegations as to the
occurrence of the surveillance.” Fazaga, 965 F.3d at
1066-67 & n.51. Also, the fact that allegations may be
set forth in sworn declarations would not establish
plaintiffs’ alleged aggrieved status as a factual matter,
at the summary judgment stage, as subject to
electronic surveillance required under Section 1806(f)
Notably, for example, Plaintiffs’ allegation that the
FBI planted devices in Plaintiff Fazaga’s office and/or
Plaintiff AbdelRahim’s home – alleged unlawful
electronic surveillance – is based solely on what
Monteilh claims to have been told by the FBI. But the
fact that Monteilh has attested to something does not
establish the matter factually, and a response to his
averments would also put at issue information subject
to the state secrets privilege—including information
that bears on his credibility. Moreover, the mere fact
that Monteilh claims he was told something about
alleged planted devices in a Plaintiff’s home or office
39a

would clearly be insufficient at the summary
judgment stage to show that Plaintiffs are aggrieved
persons for purposes of Section 1806(f). Absent proof
of aggrieved status, and in the face of a state secrets
assertion over the very issue of whether Plaintiffs are
aggrieved, the FISA displacement theory would drop
out of the case, and any litigation of the remaining
claims would proceed in accordance with the state
secrets privilege. Thus, the outcome of motions
practice on plaintiffs’ alleged aggrieved status would
impact all other proceedings on whether FISA
procedures or the state secrets privilege would apply.
That is why this issue of aggrieved status should be
addressed first if the case proceeds, absent a stay
pending a petition for certiorari.
B.

Claims Against the United States
under the Federal Tort Claims Act

The plaintiffs are advocating that the parties
proceed to litigate the surviving claims, particularly
the search claims (i.e., “the Ninth, Tenth, and part of
the Eleventh Causes of Action”), arguing that the
“surviving search claims should not be affected by
resolution of [the] question [whether FISA preempts
the Reynolds state secrets privilege], as the
Government Defendants did not assert the Reynolds
state secrets privilege as to those claims.” They
further assert that “the surviving search claims [are
not] subject to further attack on the pleadings . . . [and
that] the Court [should] permit the Parties to initiate
discovery on those claims. . . .”
The 11th cause of action arises under the
Federal Tort Claims Act (FTCA). Contrary to
Plaintiffs’ assertion, the FTCA claims are subject to
further attack on the pleadings and, if these claims
40a

are litigated, information protected by the state
secrets privilege is highly likely to be at issue along
with the FISA displacement theory for which
certiorari is under consideration.
The chart prepared by Plaintiffs describes the
FTCA claims as “unlawful search and religious
discrimination” claims, but they are described
differently in the First Amended Complaint. In
paragraphs 254-260, Plaintiffs assert the following
FTCA claims based upon the audio and video
surveillance:
(1)

Invasion of Privacy under California law;

(2)

Violation of the California constitutional right
of privacy;

(3)

Violation of California Civil Code 52.1; and

(4)

Intentional infliction of emotional distress
(IIED).

The District Court dismissed the FTCA claims
because the discretionary function exception to the
FTCA could not be litigated without evidence
protected by the state secret privilege. The District
Court did not address the United States’ other
grounds for dismissal, which included:
(1)

Because
California
law
permits
law
enforcement officers to conduct consensual
monitoring, the alleged claims surveillance is
not actionable.

(2)

The Amended Complaint fails to state a claim
for relief under the California Civil Code
Section §52.1 because it does not allege
requisite elements that the defendants acted
violently or threatened plaintiffs with violence.
41a

(3) Plaintiffs’ claims for IIED, which are based
on covert surveillance they claim is ongoing and
making their lives difficult, should be dismissed
because they fail to allege facts showing that
they suffered severe emotional distress.
(4)

Plaintiffs’ claims for IIED, which are based
upon the informant’s conduct that occurred in
2006 and 2007, are barred by the applicable
statute of limitations. 28 U.S.C. § 2401(b).

(5)

Plaintiffs’ claims for IIED, which are based on
audio and video surveillance, are speculative
because the surveillance was covert and
plaintiffs admit that they did not know about it
until February 2009, which was several years
after the informant disappeared from the
Muslim community. The covert surveillance, by
definition, could not by itself have caused the
plaintiffs to suffer emotional distress, and to
the extent that the claims are based on the
plaintiffs’ current beliefs and suspicion they are
still under surveillance, such claims are
speculative at best.

(6)

The invasion of privacy and IIED claims must
be dismissed because litigating these claims
would likely reveal information protected by
the state secrets privilege.

Separate and apart from litigating the
discretionary function exception argument, if
Plaintiffs succeed in defeating a motion to dismiss the
FTCA claims, information at issue in litigating these
claims will implicate the state secrets privilege and
thus the FISA displacement issue, which would be at
issue if certiorari is sought and granted. For example,
litigating the key issues for the invasion of privacy and
42a

intentional infliction of emotional distress claims
would risk or require the disclosure of privileged
information. Litigation of these claims entails an
inquiry into whether the alleged intrusions were
highly offensive and/or constituted serious invasions
of privacy, which may depend upon the degree and
setting of each intrusion and the explanation,
justification, motive, and objective. See generally
Hernandez v. Hillsides, Inc., 47 Cal. 4th 272, 286-87,
211 P. 2d 1063 (Cal. 2009); Sheehan v. San Francisco
49ers, 45 Cal. 4th 992, 998, 201 P. 2d 472 (Cal. 2009).
An essential element the plaintiffs must prove to
establish intentional infliction of emotional distress
claims is whether the conduct was extreme and
outrageous with the intention of causing, or reckless
disregard of the probability of causing, their emotional
distress. The resolution of this element may depend on
the explanation and justification for the alleged
conduct. See generally Potter v. Firestone Tire &
Rubber Co., 6 Cal. 4th 965, 1001, 25 Cal. Rptr. 2d 550
(1 993). Here again, to litigate these issues, evidence
concerning what occurred under Operation Flex-who
was subject to investigation, why, and how- would be
at issue or at risk of disclosure.
Government Defendants' Proposed Timeline
Deadline
Deadline

Date

Government motion to stay
proceedings pending writ
proceedings. If Government
seeks certiorari, proceedings
stayed until Supreme Court
disposes of writ and, if
43a

Motion to be filed
on September 1,
2020 and noticed
for hearing under
local rules.

certiorari granted, until
Supreme Court rules.
Briefing on Bivens claims,
including in light of the
Supreme Court's intervening
decision in Ziglar v. Abbasi,

TBD by those
parties and Court.

137 S.Ct. 1843 (201 7), or on
other grounds those
defendants may raise.
Motions briefing on whether
the plaintiffs can establish
their standing factually as
"aggrieved" persons before
Section l 806(f) proceedings.
Plaintiffs' Opening Motion

January 22, 2020
if Government
does not seek
certiorari; or 45
days after SCT
denies any petition
for writ of
certiorari.

Government' Response in
Opposition and/or Cross
Motion

45 days after
Plaintiffs’ filing

Plaintiffs' Reply Brief and
Opposition to any Cross
Motion

45 days after USG
filing

Government's Reply in
Support of any Cross Motion

30 days after
Plaintiffs’ filing

44a

III. AGENT DEFENDANTS’ STATEMENT
Defendants Tidwell, Walls, Rose, Armstrong,
and Allen (the “Agent Defendants”) respectfully
propose that the Court should proceed with briefing
and resolution of renewed motions to dismiss the
Bivens religious discrimination claims against the
Agent Defendants, which could be case-dispositive as
to Tidwell, Walls, and Rose and dramatically narrow
the claims against Allen and Armstrong. The Agent
Defendants otherwise agree with the Government
Defendants that all other proceedings should be
stayed pending the Government’s potential petition
for certiorari. To the extent the Court disagrees and
allows any other matters to proceed, the Agent
Defendants request that those proceedings be
sequenced so that the Agent Defendants’ renewed
motions to dismiss can be resolved first, before other
proceedings move forward.
Defendants Tidwell, Walls, and Rose are
somewhat differently situated from the other Agent
Defendants, in that all claims against them have now
been dismissed except for the Bivens claims alleging
unconstitutional religious discrimination (the first,
third, and sixth causes of action). The court of appeals
held that qualified immunity bars all other claims
against Tidwell, Walls, and Rose entirely, including
the Fourth Amendment and FISA claims. Amended
Op. 46-47, 82. Moreover, the religious discrimination
claims survive only to the extent that they assert
intentional religious discrimination. See Amended Op.
85-89.
Given the narrow scope of the few claims
remaining against them, Defendants Tidwell, Walls,
and Rose agree with Plaintiffs that the Court should
45a

permit the Agent Defendants to renew their motions
to dismiss the religious discrimination claims on the
ground that no Bivens remedy is available, and that
the briefing and hearing of that motion should proceed
while the government considers whether to seek
further review in the Supreme Court of its assertion
of the state secrets privilege. In addition, Defendants
Tidwell, Walls, and Rose also moved to dismiss the
religious discrimination claims on qualified immunity
grounds, and neither this Court nor the court of
appeals has addressed that defense. See Amended Op.
96 n.44. The Agent Defendants should accordingly be
permitted to renew their qualified immunity defenses
along with the Bivens issue.
The Agent Defendants disagree with the
Plaintiffs that any other litigation should move
forward before the Bivens and qualified immunity
issues have been decided. As the court of appeals
emphasized, “there are likely to be few, if any,
remaining Bivens claims against the Agent
Defendants” given the “narrow availability of Bivens
remedies under current law.” Amended Op. 75 n.31;
see also id. at 81-82 (noting that recent precedent has
“severely restricted the availability of Bivens actions
for new claims and contexts”). If this Court were to
conclude that the “severely restricted” availability of
any Bivens remedy (or qualified immunity) requires
dismissal of the religious discrimination claims, id. at
81, then no claims would remain against Defendants
Tidwell, Walls, and Rose at all, and the claims against
Defendants Allen and Armstrong would be quite
limited. Accordingly, even if the Court were to deny
the stay requested by the Government Defendants,
the Agent Defendants respectfully request that

46a

resolution of the Bivens and qualified immunity issues
should proceed first.
That sequencing is appropriate to avoid further
delay in the resolution of the Agent Defendants’ longstanding motions to dismiss the Bivens claims. Under
Plaintiffs’ proposed schedule, the first order of
business would be a Rule 26(f) conference, with nearly
two more months passing before the motions to
dismiss would be heard. But the Agent Defendants are
prepared to renew their motions to dismiss
expeditiously, and given how long those motions have
been pending, the schedule should ensure that those
motions can be briefed, heard, and decided without
further delay caused by the pendency of simultaneous
discovery and motions practice.13
Apart from the prospect of further delay, the
Agent Defendants should not be subjected to the
burdens of discovery while their motions to dismiss
remain
unresolved—especially
because,
for
Defendants Tidwell, Walls, and Rose, those motions
could end this case. Certainly Defendants Tidwell,
Walls, and Rose should not be required to respond to
discovery requests or other motions while the Bivens
and qualified immunity issues remain unresolved.
“Qualified immunity is an entitlement not to stand
trial or face the other burdens of litigation.”
Micenheimer v. Finander, 2018 WL 5098851, at *8
(C.D. Cal. Aug. 29, 2018) (internal quotation mark
omitted), report and recommendation adopted, No.
Moreover, if this Court were to reject the Agent Defendants’
remaining qualified immunity defenses to the Bivens claims, that
decision would be immediately appealable, e.g., Lazy Y Ranch
Ltd. v. Behrens, 546 F.3d 580, 587 (9th Cir. 2008), offering a
further reason why discovery should not be permitted to proceed.
13

47a

CV16-4314-CJC, 2018 WL 5099701 (C.D. Cal. Oct. 16,
2018). And even if discovery were limited to the other
Defendants, those burdens would nonetheless fall on
Defendants Tidwell, Walls, and Rose because, as the
Supreme Court has recognized, “[i]t is quite likely
that, when discovery as to the other parties proceeds,
it would prove necessary for [defendants] and their
counsel to participate in the process to ensure the case
does not develop in a misleading or slanted way that
causes prejudice to their position.” Ashcroft v. Iqbal,
556 U.S. 662, 685 (2009).
Plaintiffs attempt to distinguish Iqbal on the
ground that it involved high-level officials who faced
burdens “unique to their status.” Supra at 10. But
nothing in Iqbal suggests that the Supreme Court’s
analysis turned on the rank of the defendants. The
Court noted that discovery burdens would be
“magnified” for high-level officials, but it nowhere
denied the common-sense proposition that any
individual-capacity defendant (no matter his or her
rank) who remains a party facing potential personal
liability cannot ignore ongoing discovery against
official capacity defendants, lest that discovery
develop in a prejudicial manner. Nor did the Court
qualify its plain statement that “[t]he basic thrust of
the qualified immunity doctrine is to free officials from
the concerns of litigation, including avoidance of
disruptive discovery.” Iqbal, 556 U.S. at 685; see also
Herrick v. Strong, 745 F. App’x 287, 289 (9th Cir.
2018) (“[A] stay of discovery was appropriate here
because qualified immunity’s determinative impact
constitutes more than just a defense to liability—it is
immunity from suit altogether”); Packnett v. Patrakis,
441 F. App’x 462, 463 (9th Cir. 2011) (“[T]he district
court did not err in staying discovery pending
48a

resolution of defendants’ qualified immunity claim.”).
Neither Iqbal nor any other case holds that qualified
immunity shields only high-level officials from the
burdens of litigation.
Plaintiffs also argue that the Governmentfocused discovery they contemplate will impose only
minimal burdens on Tidwell, Walls, and Rose and that
any such burdens can be disregarded because they
would continue to exist even if these Defendants are
dismissed from the litigation. That is incorrect. The
discovery burdens faced by non-parties are materially
less substantial than those faced by parties facing the
prospect of personal liability. See, e.g., Loumiet v.
United States, 315 F. Supp. 3d 349, 354 (D.D.C. 2018)
(dismissing argument that discovery should proceed
because “Individual Defendants would be involved in
discovery anyway even if they are found immune from
liability” on grounds that their “role in this case
conceivably would differ if … non-party witnesses.”).
So long as Tidwell, Walls, and Rose remain
defendants, they and their counsel must fully
participate in discovery to safeguard their interests. If
those Defendants are found immune and dismissed
from the case, their participation in discovery would
be far more limited.14

Plaintiffs suggest that the Agent Defendants could simply
“seek this Court’s intervention” should they find any particular
discovery request to be too burdensome. But having to do so
would itself be burdensome. And by suggesting it, Plaintiffs
implicitly acknowledge that if any discovery goes forward, the
Agent Defendants and their counsel will have to monitor and
evaluate the potential consequences of every discovery request
Plaintiffs propound.
14

49a

As to Defendants Allen and Armstrong,
Plaintiffs’ search claims survive only to the extent
they allege violations of FISA and/or the Fourth
Amendment for the placement of listening devices in
Plaintiff Fazaga’s office and/or Plaintiff AbdelRahim’s
home. Amended Op. 44-47. Plaintiffs ask to begin
discovery on these claims, because the Government
did not move to dismiss them under the state secrets
privilege.
Discovery on these claims cannot go forward
without intruding on matters protected by the state
secrets doctrine, because the Government has
asserted that the alleged placement of these listening
devices is a state secret. Amended Op. 26 (recognizing
Government assertion that “whether a particular
individual” was an investigatory target and the
“particular sources and methods … used in a
counterterrorism investigation” were state secrets). In
addition, Plaintiffs have previously argued that the
Agent Defendants violated the Fourth Amendment
and/or FISA because they placed the listening devices
with a discriminatory motive – another area covered
by the Government’s assertion of state secrets. Id.
(recognizing Government assertion that “the initial
reasons (i.e., predicate) for an FBI counterterrorism
investigation of a particular person” is a state secret).
Under the Ninth Circuit’s decision, the only
way these claims can proceed is by way of the in
camera and ex parte procedures set forth in FISA. But
the application of those procedures is precisely the
issue that would be heard by the Supreme Court,
assuming the Government seeks certiorari and the
high court grants it. Accordingly, Defendants Allen
and Armstrong join the Government in requesting
that no “discovery” or other litigation of the search
50a

claims (except for pleading challenges) be permitted
until the certiorari process is concluded.
For all these reasons and those offered by the
Government Defendants, all discovery should be
stayed pending the Government’s consideration and
potential pursuit of further review in the Supreme
Court. But if the Court disagrees and concludes that
some discovery may proceed, the Court should adopt a
schedule under which the renewed motions to dismiss
the Bivens claims are addressed first—with a hearing
on those motions no later than November 13, 2020—
and defer any Rule 26(f) conference and any other
permissible discovery activities until after those
motions have been resolved.
[Signature blocks for counsel omitted]

Date: August 31, 2020

51a

